<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              


                        TUESDAY, MARCH 28, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met, at 2:17 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mitch McConnell (chairman) 
presiding.
    Present: Senators McConnell, Bond, Bennett, Brownback, 
Leahy, and Durbin.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY OF STATE


             OPENING STATEMENT OF SENATOR MITCH MC CONNELL


    Senator McConnell. The hearing will come to order.
    Madam Secretary, I apologize for holding you up. Today's 
hearing will examine the fiscal 2007 budget request for your 
Department and Foreign Operations, and affords us an 
opportunity to learn more about transformational diplomacy and 
foreign assistance reform. I expect there will also be a 
question or two on matters falling under the subcommittee's 
jurisdiction regarding the fiscal 2006 supplemental request.
    My opening statement will be brief. The President's request 
totals $33.8 billion, $23.7 billion in Foreign Operations and 
$10.1 billion in State Department operations and related 
programs. This represents an increase of $2.8 billion and $600 
million respectively above last year's enacted levels. As in 
previous years, significant resources are targeted toward the 
Middle East, the Millennium Challenge Corporation, and 
combating HIV/AIDS.
    The President is to be commended for his commitment to 
advancing democracy worldwide, as reflected in the National 
Security Strategy and through his words and deeds. According to 
the Office of Management and Budget, the fiscal year 2007 
request includes $1.7 billion for democracy, governance, and 
human rights programs, an increase of $400 million above the 
fiscal 2006 estimated levels. As this subcommittee has long 
been a strong supporter of democracy abroad, most recently 
demonstrated in the creation of a new Democracy Fund account in 
the bill last year, it would be helpful to hear your views on 
why democracy promotion is such a priority to this 
administration. Is there a connection between good governance 
and poverty alleviation? What role do democracy programs play 
in the war against terrorism? Should more activities be 
targeted toward Asia and the former Soviet Union, where 
countries like Belarus and Russia seem to be heading in the 
wrong direction?
    As you were recently in Southeast Asia, I would appreciate 
hearing more about your trip, particularly any insights you may 
have with regard to the Burma problem. Let me also state for 
the record that I recognize your strong support for the 
struggle for freedom in Burma and the aggressive efforts of the 
State Department to encourage other governments to take that 
posture as well and to support Aung San Suu Kyi's cause.
    I am hopeful that the administration can again urge the 
United Nations Security Council to debate the security threat 
Burma poses to the region. This year we need a formal debate 
and a resolution on Burma at the United Nations.
    Let me close by reiterating my concern with terrorism in 
Southeast Asia. I note that the request includes $32 million in 
military assistance for countries in that region, a decrease of 
$6 million below the previous fiscal year, and $9.8 million for 
military training programs. While I support the increase in 
military aid to Indonesia, whose democratic achievements since 
1998 have been remarkable, I hope you will clarify the $12 
million cut to the Philippines. Many of us remain concerned 
with the ongoing conflict in the southern Philippines.
    Again, Madam Secretary, thank you for being here. Let me 
turn to Senator Leahy and then we will get right to your 
statement.


             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY


    Senator Leahy. Thank you, Mr. Chairman.
    Madam Secretary, always good to have you here. This is 
probably the first and last time we are going to hear from you 
on the fiscal year 2007 budget request until we get our 302(b) 
allocation and our bill is on the floor of the Senate. At that 
time the game is pretty much over because we usually lose 
ground in conference with the House. Programs that are 
important to you and to us are cut further.
    These hearings are useful, but I think you and the State 
Department could mount a far more effective effort. You have 
allies with Senator McConnell and myself, but there are many 
people who are not allies, and we have to convince them, too. 
Now, I believe your transformational diplomacy initiative has 
much to recommend it. We discussed this before. I commend you 
for it. But I think the funds requested fall short of what you 
need.
    It is one thing to deploy your staff more strategically and 
plan and coordinate foreign aid programs effectively. I think 
that is important. But I think ``transformational'' suggests 
something more far reaching.
    This budget cuts many of USAID's core programs to promote 
democracy and fight poverty. It is true that in the aggregate 
it represents an increase, but that's only because of funding 
for AIDS and the Millennium Challenge Corporation. We are 
providing hundreds of millions of dollars to the Millennium 
Challenge Corporation, but a lot of that goes to tiny countries 
which really do not have any significant security importance to 
the United States.
    But in doing that, again the money--it is a rob Peter to 
pay Paul thing. You cut programs that have bipartisan support, 
proven results and that fund everything from girls education to 
providing clean water and improving agriculture.
    It is going to be a difficult year for this subcommittee. 
You will not find two stronger supporters than the chairman and 
myself, but a lot of domestic programs are being cut this year 
and it is going to be hard to say why we have to put more into 
foreign aid. You have to convince the chairman and ranking 
members of the House and Senate Appropriations Committees.
    I have some other concerns which are not only related to 
appropriations. There is the image and the reputation of the 
United States, which has obvious importance to our security. 
After 9/11 we had almost all of the countries in the world, 
with two or three exceptions, behind us, an outpouring of 
sympathy from every corner of the globe. Now we are seen by an 
alarming and growing number of people as an aggressive, 
occupying bully who locks up innocent people indefinitely, 
humiliates and physically abuses them, and denies them the 
right to even know what they are accused of.
    We get regular reports of Iraqi civilians, including women 
and young children, who have been mistakenly killed by U.S. 
soldiers. We spend billions on grossly overpriced 
reconstruction projects that are poorly designed, may never get 
finished, but have made some U.S. contractors rich. That does 
not make us safer, especially when we are such a good and 
generous country.
    Then there is U.N. peacekeeping. The United Nations is 
operating 18 different peacekeeping missions. One of them, in 
the Democratic Republic of the Congo, is trying to provide 
security for the first democratic elections in a half a 
century. At the same time, it is coping with armed militias and 
every possible logistical challenge in a destitute country the 
size of Western Europe, but one with virtually no 
infrastructure. That is just one example.
    Darfur will be next. It involves similar challenges and 
costs. We vote to send U.N. peacekeepers to some of the world's 
most dangerous places, but then we underfund these missions. I 
might point out that, in underfunding them, they together cost 
in a year less than our military spends in a week in Iraq.


                           PREPARED STATEMENT


    It is time for us and the other nations who do not 
contribute troops to support these missions the way we would 
expect our own soldiers to be supported.
    I will put the rest of my statement in the record. I look 
forward to hearing from you and I have already discussed with 
you a couple of the questions I will ask.

             Prepared Statement of Senator Patrick J. Leahy

    Madam Secretary, thank you for being here. This is be the first and 
last time we hear from you on your fiscal year 2007 budget request, 
until after we receive our 302b allocation and our bill is on the floor 
of the Senate. At that point the game is pretty much over since we 
usually lose ground in conference with House, when programs that are 
important to you and to us are cut further.
    Hearings like this are useful, but they are far from sufficient. 
You need to mount a far more effective effort than you have in the past 
to get the funding you need, because the party in the Majority in 
Congress, with the exception of a few allies like Chairman McConnell, 
will want to cut your budget.
    While I believe your transformational diplomacy initiative has much 
to recommend it--and I commend you for it--I am afraid that the amount 
of funds you are requesting falls far short of what you would need to 
implement it effectively.
    It is one thing if all you hope to do is deploy your staff more 
strategically and plan and coordinate foreign aid programs effectively. 
But to me, ``transformational'' suggests something significantly more 
far reaching.
    This budget, contrary to the President's promise, cuts many of 
USAID's core programs to promote democracy and fight poverty. It is 
true that in the aggregate what you propose represents an increase, but 
that is only because of funding for AIDS and the Millennium Challenge 
Corporation.
    While we are providing hundreds of millions of dollars from the MCC 
to tiny countries with little if any foreign policy or security 
importance to the United States, you would cut funds for programs that 
have bipartisan support, proven results, and that fund everything from 
girls' education to providing clean water and improving agriculture.
    Chairman McConnell and I are among your strongest supporters here, 
but with the cuts the President is proposing to so many domestic 
programs this is going to be a very difficult year for this 
subcommittee.
    You may have big plans, you may have great policies. But if you 
don't have the funds to implement them they won't amount to much. They 
certainly won't be transformational. Unless you can convince the 
Chairmen and Ranking Members of the House and Senate Appropriations 
Committees, much of what you hope to do will not be possible. I want to 
mention a few issues of special concern to me, and I will have 
questions on other topics as well:
  --First, is the image and reputation of the United States, which has 
        obvious importance to our security. After 9/11 there was an 
        outpouring of sympathy from every corner of the globe. Today, 
        we are seen by alarming numbers of people as an aggressive, 
        occupying bully that locks up innocent people indefinitely, 
        humiliates and physically abuses them, and denies them the 
        right to even knowwhat they are accused of.
    We get regular reports of Iraqi civilians, including women and 
young children, who have been mistakenly killed by U.S. soldiers. We 
have spent billions on grossly over-priced reconstruction projects that 
were poorly designed and may never get finished, but which made U.S. 
contractors rich. This is not making us safer.
  --Second, is U.N. peacekeeping. The United Nations is operating 18 
        different peacekeeping missions. One of them, in the Democratic 
        Republic of the Congo, is trying to provide security for the 
        first democratic elections in half a century, while it copes 
        with armed militias and every possible logistical challenge in 
        a destitute country the size of Western Europe with virtually 
        no infrastructure. This is just one example. Darfur may be 
        next, and it will involve similar challenges and costs.
    Yet while the Administration votes to send U.N. peacekeepers to 
some of the world's most dangerous places, we under-fund these missions 
which together cost in a year less than our military spends in a week 
in Iraq. It is time for us and the other nations who don't contribute 
any troops, to support these missions the way we would expect our own 
soldiers to be supported. Yet, again, your budget does not do that, and 
it is going to cause serious problems.
  --Third, is Latin America. It has been sorely neglected by this 
        Administration, despite protestations by State Department and 
        White House officials to the contrary. Senator DeWine has noted 
        it. Senator Coleman has noted it. There is no end to the 
        interests we share with our southern neighbors--immigration 
        being just one--and yet your programs and policies are a mere 
        shadow of what they should be. It is a missed opportunity and 
        this budget continues business as usual.
    Madam Secretary, I voted for you because I felt you have the 
qualities to do a good job. I know you are trying and I think you have 
outstanding people here and in our missions around the world. But I 
have to say I think the foreign policies of this Administration have 
too often been misguided and harmful to our national interests.
    I am sure you disagree, but I do not believe this country is safer 
because of these policies, and I do not believe the budget you are here 
to support is nearly adequate to protect our interests in today's 
increasingly divisive and dangerous world.

    Senator McConnell. Madam Secretary, I assume you have a 
prepared statement. If you do, we will make that a part of the 
record, you can make some observations, and then we will go to 
questions.

               SUMMARY STATEMENT OF HON. CONDOLEEZZA RICE

    Secretary Rice. Thank you very much, Mr. Chairman, Senator 
Leahy. I thank you very much for this opportunity. I will ask 
to enter my entire statement into the record, but I will just 
make a few comments so that we may have ample time for 
discussion and questions.
    I do want to thank the members of this committee for the 
tremendous support that you have given to our need to support 
our men and women who practice diplomacy. The funding requested 
by the President for the State Department and for foreign 
operations, of course, does more than just support diplomacy, 
because it is really strengthening our national security. The 
challenges that we face are of course sometimes military, but 
overwhelmingly they are political and economic, and they are a 
matter of helping to create a cadre of states that are well 
governed and that are democratic.
    America is of course a Nation at war and we are engaged in 
a conflict against terrorists and violent extremists. Across 
the world our Nation's men and women in uniform and the members 
of the foreign and civil supervisor, as well as our foreign 
service nationals, are shouldering great risks and 
responsibilities in advancing America's diplomatic mission, 
working in dangerous places far away from friends and family 
and loved ones. They are performing with courage and fortitude 
and heroism, and I would just like to take this opportunity to 
honor them, particularly those who have given their lives, and 
to recognize the courageous public servants and their families 
who endure long times of service abroad.
    Mr. Chairman, the President's budget is in support of a 
number of core missions: first of all, of course, to defeat the 
extremism and terrorism that we face in the world. You will see 
that there is support for coalition partners and for front-line 
states that are literally on the front lines against 
terrorists. But of course we know that it is not enough to have 
a short-term solution to terrorism, that is defeating the 
terrorists who on a daily basis plot and plan to destroy 
innocent life, but also to deal with the creation--with the 
circumstances that created those terrorists. We believe that 
the ideology of hatred which they espouse can only be met by 
advancing liberty and democracy. That is the goal that we have 
in the support for the young democracies of Iraq and 
Afghanistan, for a broader Middle East initiative that seeks to 
press authoritarian regimes throughout a region that for 60 
years has had an absence of freedom, to press for change in 
that region. Change is coming. It comes with turbulence, it 
comes with difficulty, but change in the Middle East is coming.
    Of course, our democracy agenda is not limited to the 
Middle East, but also to continuing to press for the 
democratization of those places that are still not democratic 
in Europe. In Asia, you mentioned Burma, Mr. Chairman, and we 
have been very active in that front, but also to press for 
change--for the stabilization of democracy in places that have 
already had democratic elections, for instance in Latin 
America.
    We face global challenges. HIV/AIDS--the President's 
emergency plan for AIDS is to have an effect on those afflicted 
with AIDS and on those who might be afflicted with AIDS. We 
fight the counter-drug fight with allies around the world, and 
of course we have taken on recently the new challenge of the 
possible pandemic of Avian flu.
    Finally, we are engaged in working with transformational 
states. Those are the states that we believe have the capacity 
to make a great leap forward. They are states that are very 
poor, where poverty is still a problem, but where they can be 
recognized for their democratic tendencies, for their good 
governance, for their desire to fight corruption. It is really 
a new paradigm for the delivery of foreign assistance and the 
President's Millennium Challenge Account has been a real tool 
in pressing countries to deal with the kinds of problems that 
retard development and that retard the development of state 
capacity, so that American foreign assistance is not simply a 
crutch, but rather an enabling mechanism for states to one day 
become independent of foreign assistance and to be able to 
attract trade and investment, which is after all how states 
really grow.
    Let me say that we have a number of initiatives under way 
in the Department, what we have called transformational 
diplomacy, and I would only mention two. That is that we have 
done a good deal now of global repositioning. We have 
repositioned 100 people from posts that are, we believe, posts 
that can afford to have fewer personnel, to reposition them to 
front-line posts in places like India and China where we really 
need more people.
    We are also requesting more positions, but I just want the 
committee to know that we have made a commitment that we will 
also reposition existing resources, that we will not just ask 
for new resources, that we will indeed make the hard choices 
about changing our global posture, which still looks more like 
the 1980s and 1990s than it should in 2006.
    Finally, we have also made changes in our foreign 
assistance under the authorities that are granted to me for the 
direction of foreign assistance, with the creation of a post in 
the Department which will help us to better align the programs 
of USAID and the State Department. That is about 80 percent of 
all foreign assistance. We believe that, with this program, 
which I have asked Randy Tobias to take on, and should he be 
confirmed by the Senate he would also be the USAID 
Administrator--the point here is to make sure that we make the 
best use of the very precious resources that we are given.

                           PREPARED STATEMENT

    We recognize that the American people have been generous in 
their support of the diplomatic mission, of foreign assistance. 
We recognize that the American people want to be generous 
because we are compassionate when we look to helping developing 
societies, when we deal with humanitarian crises. But we also 
recognize that we have an obligation of stewardship and 
efficient use of those resources, and we believe that this new 
structure should give us better opportunity to do so.
    Thank you very much, Mr. Chairman.
    [The statement follows:]

              Prepared Statement of Hon. Condoleezza Rice

    Chairman McConnell, ranking member Leahy, members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year 2007 budget for State Department, Foreign Operations, and 
Related Programs and agencies. I appreciate this opportunity to address 
the members of the subcommittee and to talk about America's role in 
meeting the unprecedented challenges of our world today. I look forward 
to working closely with Congress to ensure that America's diplomacy has 
the necessary resources to secure our interests, advance our ideals, 
and improve people's lives around the world. In all of these mutual 
efforts, of course, we must remain committed to our responsibility to 
be good stewards of the American taxpayers' hard-earned dollars.
    The President's fiscal year 2007 International Affairs Budget for 
the Foreign Assistance Programs, Department of State Operations, USAID 
and other foreign affairs agencies totals $35.116 billion. This total 
includes $23.72 billion for Foreign Operations and $10.078 billion for 
State Operations, as well as $1.317 billion in Public Law 480 Food Aid, 
and reflects a funding increase of $3.539 billion from the level 
appropriated last year.
    As I did last year, I want to emphasize that it is important to 
maintain a balance of resources between State operations and foreign 
assistance. The diplomatic platforms that we have--our people, our 
ability to operate in the field, our facilities--are the platforms from 
which we conduct our diplomacy and we are especially concerned that our 
people have the training, technology and facilities that they need, all 
with the requisite security. These vital components are necessary to 
the success of our diplomatic efforts and foreign assistance programs.
    Additionally, I would like to take this opportunity to encourage 
the members of this committee to continue to provide their full support 
and leadership in passing the fiscal year 2006 Emergency Supplemental 
request that is before you now. This urgently needed funding will 
support immediate political, economic, humanitarian, and operational 
requirements that will allow us to meet new challenges--and seize new 
opportunities--to build a better, safer, and freer world.
    Mr. Chairman, the funding requested by the President for State 
Department and Foreign Operations will do more than support our 
diplomacy; it will strengthen our national security. America is a 
Nation at war. We are engaged in a conflict against terrorists and 
violent extremists. Across the world, our Nation's men and women in 
uniform and the members of our Foreign and Civil Service, as well as 
our Foreign Service Nationals, are shouldering great risks and 
responsibilities advancing America's diplomatic mission--often working 
in dangerous places far away from their friends and loved ones. They 
are performing with courage, fortitude and heroism. Today, I want to 
honor those who have given their lives in this cause and to recognize 
the courageous public servants and their families who endure long 
periods of service abroad.
    America's enemies remain eager to strike us, but our actions in the 
past 4 years have weakened their capability. Our diplomacy plays a 
vital role in defeating this threat. We are building partnerships with 
traditional allies and with new partners that share our perception of 
the threat. Most importantly, we are working directly with foreign 
citizens who wish to build thriving free societies that embrace 
democratic values and freedoms.
    This is indeed an extraordinary period. It is a time that is unlike 
any other since perhaps the end of World War II, when the United States 
took on the mantle of creating a stable and democratic Europe. Europe 
at that time was weak and divided. Today it is free and at peace. We 
learned from that experience that if we are faithful to our democratic 
values we are safer and more secure. When democracy and freedom are in 
retreat, we are more vulnerable, which we learned in a very graphic and 
painful way on September 11, 2001.
    The President has said that the only way to deal with the 
ideologies of hatred that we face in the world today is to present the 
world with the antidote, which is the spread of liberty and freedom. 
The men and women of our diplomatic service work daily in this cause. 
In his Second Inaugural Address, President Bush laid out the vision for 
American leadership in the world today: ``[I]t is the policy of the 
United States to seek and support the growth of democratic movements 
and institutions in every nation and culture, with the ultimate goal of 
ending tyranny in our world.'' The President's vision stems from the 
recognition that we are living in a time of extraordinary change, where 
the prospect of violent conflict among great powers is more remote than 
ever. Nations are increasingly competing and cooperating in peace, not 
preparing for war. Democratic reform has begun in the Middle East. The 
United States is working with our democratic partners in every region 
of the world to build global stability through a balance of power that 
favors freedom and advances liberty.
    At the same time, other challenges have assumed new urgency. The 
greatest threats today emerge more within states than between them, and 
the fundamental character of regimes matters more than the 
international distribution of power. It is impossible to draw neat, 
clear lines between our security interests, our development goals, and 
our democratic ideals in the world today. Our diplomacy must integrate 
and advance all of these goals, through a strategy that is rooted in 
partnership, not paternalism--in doing things with people, not for 
them. This is the objective of our diplomatic efforts today and in the 
future.

                       TRANSFORMATIONAL DIPLOMACY

    Mr. Chairman, the 2007 budget represents what we call 
transformational diplomacy. The objective of transformational diplomacy 
is to work with our many partners around the world to build and sustain 
democratic, well-governed states that will respond to the needs of 
their people and conduct themselves responsibly in the international 
system.
    We must transform old diplomatic institutions to serve new 
diplomatic purposes, and we must empower our people to practice 
transformational diplomacy. With the generous support of the Congress, 
my good friend and predecessor, Colin Powell, brought American 
diplomacy into the 21st century. Now, my leadership team and I are 
building on this strong foundation and beginning the generational work 
of transforming the State Department and USAID. This will not only 
strengthen national security, it will improve our fiscal stewardship. 
We are committed to using American taxpayers' dollars in the most 
effective and responsible way to strengthen America's mission abroad.
    In the past year, we have begun making changes to our organization 
and our operations that will enable us to advance transformational 
diplomacy. We are forward-deploying our people to the cities, 
countries, and regions where they are needed most. We are starting to 
move hundreds of diplomats from Europe and Washington to strategic 
countries like China, India, South Africa, and Indonesia. We are 
supplying our people with additional training and language skills in 
order to engage more effectively with foreign peoples. Our national 
security depends, in part, on the ability of American diplomats to 
speak and master critical foreign languages. We must improve our 
communication skills in critical foreign languages such as Arabic, 
Farsi, Mandarin, Hindi, and Urdu to promote our national security, 
foster greater economic integration, and further the agenda of freedom. 
Consistent with our language and education initiative, the President's 
fiscal year 2007 budget includes proposals to manage for results. We 
are enabling our diplomats to work more closely with America's 
servicemen and women creating the most cohesive and unified diplomatic 
team in our history.
    To ensure better coordination of our financial resources I have 
announced the creation of the new position of Director of Foreign 
Assistance. This essential reform will sharpen our capability to use 
foreign assistance more efficiently and effectively to: further our 
foreign policy goals; bolster our national security; encourage 
prosperous, democratic and lawful societies that join us in overcoming 
the forces of terror; reduce poverty; and improve people's lives around 
the world.
    We are making these initial changes using our existing authority. 
The additional funding we are requesting in the fiscal year 2007 budget 
will help us to implement our vision to transform the State Department 
to meet the challenges of the 21st century. For this purpose, we are 
requesting $9.3 billion for State Department operations. 
Transformational diplomacy begins by ensuring that our people are in 
the right places, with the necessary tools and training to carry their 
mission. We are requesting $23 million for 100 new positions on the new 
frontlines of our diplomacy: key transitional countries and emerging 
nations in Africa, Latin America, the Middle East, and Asia. These new 
positions will complement the 100 positions that we are already moving 
as part of our ongoing effort to best balance our global diplomatic 
posture. This repositioning effort will require a renewed commitment to 
secure and to modernize many posts overseas, and we are seeking $1.5 
billion for security-related construction and rehabilitation of our 
diplomatic facilities.
    More and more, we are calling on our diplomats to leave their 
families and serve overseas in unaccompanied assignments, or ``hardship 
posts''. With your help, as part of our effort to modernize the Foreign 
Service, we will institute a new pay-for-performance system that fairly 
compensates our men and women working abroad. New training will also 
make full use of dynamic new technologies, and we are asking for $276 
million to provide for our workforce the latest information technology 
and to support professional training needed for success.
    These new tools and training will better enable our Nation's 
diplomats to tell America's story to the people of the world, and in 
turn, to listen to the stories they have to tell. We have heard the 
legitimate criticisms that have been made of our public diplomacy, and 
we are re-engineering how we do business. I have stressed that public 
diplomacy is the responsibility of every single member of our 
diplomatic corps, not just our public diplomacy specialists. We are 
creating forward-deployed, regional public diplomacy centers. These 
centers, or media hubs, will be small, lean operations that work out of 
our embassies or other existing facilities, enabling us to respond 
quickly to negative propaganda, to correct misinformation, and to 
explain America's policies and principles. The $351 million that we 
seek will be essential to continue to revitalize our public diplomacy.
    To complement our public diplomacy, we must ensure that America 
remains a welcoming place for tourists, students, and businesspeople, 
while at the same time protecting our homeland from terrorists and 
criminals who would exploit our open society to do us harm. The State 
Department, in partnership with the Department of Homeland Security, 
has taken new steps in the past year to realize the President's vision 
of secure borders and open doors. Our request of $1.1 billion will fund 
the Border Security Program and enable us to hire 135 new consular 
officers and passport staff to meet the growing demand of foreign 
citizens seeking to travel to America, while maintaining its 
fundamental commitment to serve each and every American citizen who 
travels abroad. At the same time, we are seeking $474 million to 
support educational and cultural exchanges, which increase mutual 
understanding between our citizens and the peoples of the world.
    Finally, we must continue to enable our Nation's diplomats to work 
effectively with our partners in the United Nations and other 
international organizations. The United States takes its international 
obligations seriously, and we remain committed to strengthening the 
financial stability, efficiency, and effectiveness of international 
organizations. We seek $1.6 billion to fund assessed and voluntary 
contributions to international organizations.
    Mr. Chairman and members of the subcommittee, America's purpose in 
this young century is to fuse our democratic principles with our 
dramatic power to build a more hopeful world. Our purposes are 
idealistic, but our policies are realistic. The men and women of the 
State Department have risen to the challenge of transformational 
diplomacy with enthusiasm and courage and are helping our partners 
around the world to build a future of freedom, democracy, and hope.
    Realizing the goals of transformational diplomacy will require a 
sustained effort over the course of a generation. Most importantly, it 
will require a strong partnership with the Congress. We will do our 
part to use our existing authority to make foreign assistance more 
effective and to enhance our ability to serve as responsible stewards 
of the American taxpayers' money. Our goal in establishing the new 
position of Director of Foreign Assistance is a first step. We welcome 
a dialogue with Congress about how we can work together to improve 
further America's foreign assistance, enabling us to respond more 
quickly and more effectively to the world's development challenges.

                            DEFEATING TERROR

    When we speak about the Global War on Terrorism, we first think of 
what our military is doing in the mountains of Afghanistan or the towns 
and cities of Iraq. But we also need to think of the important role of 
our foreign assistance and diplomatic presence in places beyond 
Afghanistan and Iraq and in the array of states that are now fighting 
side-by-side with us in the Global War on Terrorism. As they are 
supporting us, we need to support them. In this budget we are 
requesting $6.2 billion to strengthen the coalition partners who are 
standing shoulder to shoulder with us on the front lines in the fight 
against terrorism. Our assistance empowers our partners to practice 
more effective law enforcement, police their borders, gather and share 
essential intelligence, and wage more successful counterterrorism 
operations. In many nations, our assistance will also help to bolster 
thriving democratic and economic institutions reducing the societal 
divisions that terrorists exploit for their own ideological purposes. 
Our fiscal year 2007 request includes $739 million for Pakistan, $560 
million for Colombia, $154 million for Indonesia, $457 million for 
Jordan, and $335 million for Kenya.
    Essential to winning the war on terrorism is denying our enemies 
the weapons of mass destruction that they seek. We must develop new 
tools for counter-proliferation to confront and dismantle the networks 
involving rogue states, outlaw scientists, and black market middlemen 
who make proliferation possible. We are building on the achievements of 
the Proliferation Security Initiative, the G-8 Global Partnership, and 
U.N. Security Council Resolution 1540. We are working to stop Iran and 
North Korea from succeeding in their quest for weapons of mass 
destruction, and we continue to do everything in our power to deny 
terrorists access to the world's most dangerous weapons, including 
conventional weapons like MANPADS. The fiscal year 2007 budget proposes 
to increase funding for the State Department's efforts to help 
countries counter the proliferation of dangerous weapons and materials.

                    ADVANCING LIBERTY AND DEMOCRACY

    In December over 12 million Iraqi people voted in free elections 
for a democratic government based on a constitution that Iraqis wrote 
and adopted. Iraq is on a track of transformation from brutal tyranny 
to a self-reliant emerging democracy that is working to better the 
lives of its people and defeat violent extremists. The President's 
request of $771 million, along with the supplemental request, is an 
essential part of our National Strategy for Victory in Iraq. The 
funding for the Department's operations and programs is a critical 
counterpart to the efforts of our troops in the field as we pursue 
integrated security, economic, and political tracks to success in Iraq. 
The supplemental request will fund programs that are integral to our 
counter-insurgency campaign and to the operation and security of our 
diplomatic mission, while the fiscal year 2007 request supports 
capacity development essential for Iraq's transition to self-reliance.
    Our work also continues in Afghanistan. Four years after the United 
States, along with our Afghan allies and others, removed the Taliban 
regime, the Afghan people have established a democratic government. 
Millions of men and women have voted freely for the first time. Today, 
Afghanistan has a democratic constitution, an emerging free economy, 
and a growing, multi-ethnic army. Despite this dramatic progress, there 
is still much hard work to be done. The President's request of $1.1 
billion for Afghan reconstruction, along with supplemental funding, 
will allow us to continue working with the people of Afghanistan to 
meet the remaining political, economic, and security challenges they 
face.
    The people of Iraq and Afghanistan are helping to lead the 
transformation of the Broader Middle East from despotism to democracy. 
This is a generational challenge. Elections are an important and 
necessary beginning and the freedom to choose invests citizens in the 
future of their countries. But one election does not complete the 
fulfillment of democracy. Successful democracies are characterized by 
transparent, accountable institutions of governance; a thriving civil 
society that respects and protects minority rights; a free media; 
opportunities for health and education; and the renunciation of 
terrorism and ideologies of hatred. On this last point especially, we 
will continue to insist that the leaders of Hamas agree to the 
conditions of the quartet to reject terrorism and work toward peace 
with Israel.
    Helping the nations of the broader Middle East to make progress in 
building the foundations of democratic societies is the mission of the 
Middle East Partnership Initiative, for which we are seeking $120 
million. We are also requesting $80 million for the National Endowment 
for Democracy to continue its work in promoting lasting democratic 
change around the world.
    Progress in the broader Middle East offers hope, but the region 
still faces determined enemies, especially the radical regime in 
Tehran. Through its aggressive and confrontational behavior, Iran is 
increasingly isolating itself from the international community. In 
recent months, our diplomacy has broadened the international coalition 
to address Iran's nuclear ambitions. This issue is now before the U.N. 
Security Council.
    The Iranian people should know that the United States fully 
supports their aspirations for a freer, better future, which is why the 
President requested $75 million in supplemental funding for democracy 
promotion activities. As we aim to isolate the government of Iran 
because of its defiance of the international community over its nuclear 
program, it is all the more important that we make clear to the Iranian 
people our commitment to their well-being. The funds we are requesting 
in the supplemental will enable us to expand considerably our direct 
communication with the Iranian people through public diplomacy, 
educational and cultural exchanges, and expanded broadcasting.

                       MEETING GLOBAL CHALLENGES

    Like terrorism and nuclear proliferation, many other challenges in 
today's world are global and transnational in nature. These threats 
breach all borders and affect all nations. Today's global threats 
require global partnerships, and America's diplomats are helping to 
transform our relationships with countries that have the capacity and 
the will to address shared global problems.
    One major global threat comes from disease, especially the scourge 
of HIV/AIDS. This pandemic affects key productive members of society: 
the individuals who drive economies, raise children, and pass on the 
customs and traditions of their countries. The United States is 
committed to treating people worldwide who suffer from AIDS because 
conscience demands it, and also because a healthier world is a safer 
world. The hallmark of our approach is the President's Emergency Plan 
for AIDS Relief.
    The Emergency Plan is rooted in partnership. Our approach is to 
empower each nation to take ownership of the fight against HIV/AIDS 
through prevention, treatment, and care. The results to date have been 
remarkable. In the past two years, the Emergency Plan has expanded 
life-extending antiretroviral treatment to 471,000 people worldwide, 
400,000 of whom are located in sub-Saharan Africa. As of last year, the 
Emergency Plan has extended care to more than 1.2 million orphans and 
vulnerable children. The President's 2007 Budget requests $4 billion, 
$740 million more than the current year, to continue American 
leadership in the global fight against HIV/AIDS. Additionally, the 2007 
budget includes $225 million to fight malaria, which is a major killer 
of children in sub-Saharan Africa. These funds respond to a pledge to 
increase United States funding of malaria prevention and treatment by 
more than $1.2 billion over five years.
    The United States is also playing a key global role in preparing 
for the threat of a possible avian influenza pandemic by providing 
political leadership, technical expertise, and significant resources. 
The most effective way to protect the American population from an 
influenza outbreak abroad is to contain it beyond our borders. The 2007 
budget provides resources to continue these activities in countries 
already experiencing outbreaks of influenza and in other countries on 
the cusp of infection.
    Another key global challenge is to curtail the illicit drug trade 
and to dissolve the relationships between narcotic-traffickers, 
terrorists, and international criminal organizations. The 2007 budget 
requests $722 million for the Andean Counterdrug Initiative, which 
advances the President's goal of strengthening democracy, regional 
stability, and economic development throughout the hemisphere. The 
Initiative provides funding for law enforcement, security programs, and 
alternative livelihood assistance for those at risk from the trade of 
illicit narcotics.
    The United States remains the world's most generous provider of 
food and other emergency humanitarian assistance. We are also helping 
refugees to return to their countries of origin. Where that is not a 
viable option, the United States leads the international community in 
resettling refugees here in the United States. The fiscal year 2007 
request of $1.2 billion for humanitarian relief, plus $1.3 billion in 
food aid, will ensure that we are prepared to extend the reach of 
American compassion throughout the world.

                        BUILDING STATE CAPACITY

    Many states cannot meet the basic responsibilities of sovereignty, 
including just and effective control over their own territory. It is 
critical to American security to build state capacity where it does not 
exist, to help weak and poorly governed states to develop, and to 
empower those states that are embracing political and economic freedom.
    We must anticipate and prevent the emergence of failed states that 
lead to regional instability and which become havens for terror and 
oppression that threaten America's security. The Office of the 
Coordinator for Reconstruction and Stabilization has been established 
to address complex and challenging situations around the globe. The 
2007 budget proposes to strengthen planning efforts for countries and 
regions of greatest concern. We seek to coordinate the deployment of 
United States resources to prevent the emergence of failed states, and 
to respond quickly and effectively to states emerging from conflict 
around the world. With an early and effective response, we can reduce 
the need for a more robust and costly military commitment. This budget 
request includes $75 million for the conflict response fund.

                       HELPING DEVELOPING STATES

    Where the basic foundations of security, governance, and economic 
institutions exist, the United States is advancing bold development 
goals. The President has embarked on the most expansive development 
agenda since the Marshall Plan, including new debt relief initiatives, 
the doubling of Official Development Assistance since taking office, 
and performance-based funding for international financial institutions. 
Development is an integral pillar of our foreign policy. In 2002, the 
President's National Security Strategy for the first time elevated 
development to the level of diplomacy and defense, citing it as the 
third key component of our national security. States that govern 
justly, invest in their people, and create the conditions for 
individual and collective prosperity are less likely to produce or 
harbor terrorists. American diplomacy must advance these development 
principles.
    Our development assistance focuses on building the tools for 
democratic participation, promoting economic growth, providing for 
health and education, and addressing security concerns in developing 
nations, as well as responding to humanitarian disasters. Such 
investments are crucial to improving the lives of people around the 
world and enhancing our own national security. We seek to provide the 
necessary tools and incentives for governments to secure the conditions 
for the development of free and prosperous societies.
    Relieving the burden of heavily indebted countries is essential to 
ending a destabilizing lend-and-forgive approach to development 
assistance. At the Gleneagles summit last July, the G-8 agreed on a 
landmark initiative to provide 100 percent cancellation of qualifying 
Heavily Indebted Poor Countries' debt obligations to the World Bank, 
the African Development Bank, and the International Monetary Fund. 
United States leadership was instrumental in securing this agreement. 
We estimate that a total of 42 countries will receive up to $60 billion 
in debt relief as a result of this initiative. The Budget that I 
present to you today supports the United States share of the 
multilateral debt forgiveness provided by the G-8 proposal.
    We are also seeking support for our share of the G-8's assistance 
package for Africa. This package will fight malaria, HIV/AIDS, and 
corruption and help to create an environment where democracy and 
economic opportunity can flourish. Specifically, the 2007 budget 
supports the President's commitment to double assistance to Africa 
between 2004 and 2010. In addition, the request supports our commitment 
to help African countries to build trade capacity; to educate their 
citizens through a $400 million Africa Education Initiative; and to 
combat sexual violence and abuse against women through a new Women's 
Justice and Empowerment Initiative.
    Although Africa is a primary focus of our efforts to reduce poverty 
and invest in people and reform, it is by no means the only continent 
on which our resources are directed. We seek a total of $2.7 billion 
for worldwide Development Assistance and Child Survival and Health 
funds.

                   EMPOWERING TRANSFORMATIONAL STATES

    We also seek to empower those states that are governing justly. The 
flagship of our efforts is the Millennium Challenge Account, which is 
helping states that are making measurable progress to achieve 
sustainable development and integration into the global economy.
    In 2002, in Monterrey, Mexico, the nations of the world adopted a 
new consensus on reducing international poverty. Developed nations 
agreed to increase their assistance to developing countries, and 
developing countries committed to making progress toward good 
governance, economic freedom, and investments in the health and 
education of their people. In response to this Monterrey Consensus, the 
Administration and the Congress created the Millennium Challenge 
Account, which targets new development assistance to countries that 
meet benchmarks of political, economic, and social development. This 
innovative approach partners with and invests in low and lower-middle 
income countries that take ownership of their own economic development.
    In the past year, we have accelerated our efforts to negotiate and 
sign development compacts between transformational countries and the 
Millennium Challenge Corporation. To date, the MCC has identified 23 
countries eligible for development compacts, and has approved compacts 
worth a total of $1.5 billion with eight countries: Armenia, Benin, 
Cape Verde, Georgia, Honduras, Madagascar, Nicaragua, and Vanuatu. Nine 
eligible countries have prepared proposals totaling $3.1 billion, and 
another six will soon submit proposals. We are seeking $3 billion of 
new funding in the fiscal year 2007 budget, with the goal of approving 
up to 10 new compacts.

                               CONCLUSION

    Mr. Chairman and members of the subcommittee, realizing the goals 
of transformational diplomacy will require a sustained effort over the 
course of a generation. Most importantly, it will require a strong 
partnership with the Congress. We at the Department of State will do 
our part to use our existing authority to make our diplomatic 
initiatives and our foreign assistance programs more effective and to 
enhance our ability to serve as responsible stewards of the American 
taxpayers' money. I look forward to working with the subcommittee.

    Senator McConnell. Thank you, Madam Secretary.
    Even though it is arguably only indirectly related to your 
budget, I would like to start off with the biggest issue 
confronting the State Department, the administration, and the 
country, and that is Iraq. Yesterday, I had in my office a 
Kentucky soldier who was in Iraq for a year. He left in 
January. This is a soldier who is completely apolitical, who 
gave me a report on his own initiative of his observations of 
what had happened during his year there. He served with a 
transportation company that was frequently squiring vehicles 
around the country and had a number of experiences, including 
80 IED attacks on his convoys.
    During the course of the year his company lost two 
soldiers. This soldier went on to say that extraordinary 
progress had been made in Iraq in every aspect that he could 
witness, and he also expressed his complete and total 
frustration that nobody in this country seems to know anything 
about this progress.
    I know that there is a tendency to teach in journalism 
school that only bad news is news, but in a place like Iraq, I 
find a lot of soldiers completely frustrated by the fact that 
almost nothing that they are doing is being characterized as 
good work and almost no visible signs of progress seem to get 
out.

                                  IRAQ

    Could you itemize for us some of the progress you see being 
made? Three successful elections last year; I think everybody 
thinks that that is a good thing. But what are some of the 
indicators of progress that are not being written about and 
therefore not being learned about by Americans here at home?
    Secretary Rice. Thank you, Senator McConnell. I would start 
with the political news because it is indeed very difficult 
when you see the bombings every day or the violence on TV. It 
is a harder story to tell of the political progress that is 
being made. I also recognize that at times it seems that the 
Iraqis are engaged in argumentation and debate and they cannot 
get this formed and they cannot get that formed. I would remind 
people that in fact these are people who are for the first time 
in their entire history, and really one of the only times in 
this entire region, that people who are very, very different--
Sunnis, Shia, Kurds--sitting down to try and solve their 
problems politically, not by violence and not by repression.
    Of course it is difficult and of course it is contentious. 
But that is the process of democracy. The forming of a 
government of national unity, which we have encouraged that 
they do it as quickly as possible, but it is not surprising 
when they have existential issues, like resource allocation or 
how to deal with the Baathists who repressed people in the 
past, that it is going to be contentious and difficult.
    The good news is all elements of Iraqi society are now 
engaged in that and they are moving ahead. As you said, they 
have had three elections. The last one, 11 million Iraqis 
voted. That demonstrates that the Iraqi people want a political 
course, not a course of violence.
    Second, it is true that the reconstruction has in some 
places been slower than we would have liked. But there is also 
very good news about reconstruction. The United States has been 
able with reconstruction funds to improve the capacity of an 
electrical grid that only had 50 percent of the generating 
power that the country needed. It was true that Baghdad was 
getting power most of the day, but most of the country was 
getting none. Now it is true that the power in Baghdad has been 
less than at the time of the war, but in part that is because 
the power is being spread over the entire country. We are 
increasing the capacity and expect that by the end of the year 
we would have increased that capacity significantly so that the 
country will have a more even distribution of power.
    Schools and clinics and children going to school are really 
the result of the reconstruction funds that this Congress has 
appropriated to the Iraqi people. Probably most importantly, 
the Iraqi people now on any day recognize that the time will 
come when there will be a government elected by them governing 
them, over which they have a say and where repression will not 
be the case.
    I would mention just one other thing and that is that the 
security forces of Iraq have improved quite substantially over 
the last year. During this most recent uptick in sectarian 
violence, the Iraqi army performed very well indeed. The Iraqi 
army is now often in the lead in counterterrorism operations 
and in stability operations. They have taken territory. They 
themselves are in control of 50 percent of the Baghdad area.
    We are making progress then in creating security forces, in 
helping to improve the infrastructure of a country that had a 
completely deteriorated infrastructure, of getting schools and 
clinics and hospitals either refurbished or built, and in 
supporting the Iraqis in a political process that is going to 
lead to a dramatically different Iraq. That is the good news 
story against obviously a backdrop of significant violence.
    Senator McConnell. So what are the next important 
milestones that we should expect in the next few months?
    Secretary Rice. The next important milestone is the 
formation of a government, the national unity government. Then 
we would expect that they will issue a program on which they 
will govern.
    If you do not mind, I will just take one moment to clear up 
something. I hear a great deal of the time that the Iraqis are 
slow in forming this government because they are haggling over 
jobs. That is the way that it is sometimes put. In fact, they 
are developing a program on which the national unity government 
would govern. They are developing the rules by which they will 
actually govern, what will be the responsibilities of the 
deputy prime minister, what will be the relationship of those 
ministers to subordinate ministries. And they are working on 
who will actually take certain positions.
    So you can see that it is a much more complicated set of 
negotiations that they are in than if they were just haggling 
over who was going to take the prime ministership. That said, 
we are pressing that they should finish this work as soon as 
possible. That is the next major milestone, Senator. After 
that, I think there will be milestones in Iraq security forces 
taking responsibility for larger and larger pieces of territory 
in Iraq.
    Senator McConnell. What are the Iranians doing in the 
country and in what way is that impeding progress for the new 
government?
    Secretary Rice. Well, the Iranians are not helpful in the 
south. We believe that there are indications that they may be 
supporting troublemakers, militias and the like, in that 
region. We also are concerned that they are not always 
transparent in relations with people in Iraq about trying to 
influence the direction of Iraq.
    We believe that--the Iraqis disagree, and we do not 
disagree, that Iran has to be a good neighbor, that they ought 
to have a good relationship with Iran. The British, of course, 
have been concerned that Iranian technology has showed up in 
some of the IEDs that are so devastating to personnel in Iraq. 
So there are several elements of Iranian policy that we find 
deeply troubling.
    Should Zal Khalilzad exercise the authority that he has to 
meet with the Iranian ambassador, an authority he has had for 
several months, these are some of the issues that we would 
intend to bring up with Iran in what would be a very limited 
set of discussions about Iraq.
    Senator McConnell. Two more questions before I turn to 
Senator Leahy. Am I correct that American casualties are 
substantially down in recent months, and is that--if I am 
correct--a reflection of just what you were talking about 
earlier, that the Iraqis are taking on more and more of the 
burden of being on the point and dealing with the security 
issues?
    Secretary Rice. Senator, the trends are as you noted. Of 
course, every casualty is one that we mourn, but the trends are 
in that direction. Some of it may indeed be as a result of the 
fact that the Iraqis are more on the front line. There are some 
who believe that the insurgents or the terrorists have also 
taken a different tactic in who they are actually going after.
    But whatever the case, we would hope that as Iraqis step 
forward more and more that in fact they are going to have to do 
the brunt of the fighting. That is only as it should be because 
Iraq is their country.
    Senator McConnell. Finally, what did you make of the 
reports that the Russians were providing information to Saddam 
Hussein as we began the war?
    Secretary Rice. I have gotten my hands on the document, 
which I wanted to do, and I have talked with the Russian 
foreign minister and asked them to look into this and to take 
it very seriously. We take very seriously any implication that 
someone might have been passing information that endangered the 
operation at the outset of the war and we will look for an 
answer back from the Russian Government once, hopefully, they 
have had a chance to look into it.
    Senator McConnell. Senator Leahy.
    Senator Leahy. Thank you.
    Will we be able to find out what that answer is?
    Secretary Rice. Absolutely. We have wanted not to conclude 
before we have the discussion, but it is obviously a very 
serious matter and we are taking it up with the Russians.

                     SPECIAL COURT FOR SIERRA LEONE

    Senator Leahy. Madam Secretary, while we were waiting 
before the hearing began I discussed a matter with which I have 
a great deal of concern. That is the matter of Charles Taylor. 
A number of us had urged Nigeria for years to transfer Charles 
Taylor to the Special Court for Sierra Leone. We asked the 
State Department for a strategy to get Taylor to the court. We 
have not got that.
    Finally, last week Liberia and Nigeria cleared the way for 
getting Taylor to the court, which was good news. But then, 
rather than turn Taylor over, Nigerian President Obasanjo told 
Liberia to just come and get him. Now we find out according to 
reports that he has escaped and may no longer be in Nigeria, 
escaped from the villa where he was sitting and involving 
himself with matters in a number of countries.
    Now, if after all that time he has been sitting there, for 
all that time nothing happened, finally they said, okay, now we 
will turn him over, and now they let him escape, that boggles 
the imagination. It is totally outrageous. President Obasanjo 
has for years thwarted attempts to get Taylor to a court. I 
believe he bears responsibility for letting him escape.
    I understand he plans to meet with President Bush at the 
White House tomorrow. I would urge you to cancel that visit, 
cancel that visit until Taylor is in custody of the court where 
he belongs. I think it would send the wrong message if he 
escapes one day and the next day the person who had him in 
custody and let him escape is greeted at the White House.
    Do you want to comment on that?
    Secretary Rice. Thank you, Senator. I certainly believe 
that the Nigerian Government has a responsibility, has a 
responsibility to transfer Charles Taylor safely to Liberian 
custody so that he can be brought to the court. I cannot 
confirm at this point what has happened to Charles Taylor, 
whether or not he has escaped. But obviously it would be a 
matter of the utmost seriousness if that did indeed take place.
    The Nigerians indeed did take Charles Taylor, at the behest 
of the international community, but I think there was an 
understanding that he would be monitored and that he would be 
at some point, President Obasanjo said when there was a 
Liberian government, turned over for prosecution on the court, 
and we were on course for that. If we are no longer on course 
for that, then we will have to examine why this happened and 
have consequences accordingly.
    Senator Leahy. You said two things: one, he would be 
monitored; and second, when there is a government in Liberia he 
could be turned over. Now, they do have a democratically 
elected president. She was here just recently visiting, a very 
impressive person. I think it was known that Taylor was being 
monitored and he was involved in activities outside Nigerian 
borders. So the monitoring broke down if there was any 
monitoring.
    So they had a couple strikes against them. One, that broke 
down. Two, he wasn't turned over. There was a court prepared to 
take him in Sierra Leone. He could have gone there. Now, if he 
has escaped, I think after the monitoring failed, after getting 
him to a court failed, after keeping him in custody failed, I 
really think it would be a mistake to have President Obasanjo 
here with the kind of imprimatur of the United States on that 
visit that a presidential meeting would bring.
    Secretary Rice. We consider it a very serious matter, 
Senator, if he has indeed escaped, very serious.
    Senator Leahy. Do you agree with me that Charles Taylor is 
a threat----
    Secretary Rice. Absolutely.
    Senator Leahy [continuing]. To security in that region?
    Secretary Rice. Absolutely.
    Senator Leahy. Many of us consider him a mass murderer too, 
for what he did before.
    Secretary Rice. I think that it was really the President 
who at one point when he was in Africa insisted that he step 
down. We then supported the Liberians to end the violence 
there, in fact at one point having marines help in ending that 
violence. We believe now that we have a great deal at stake 
also in the success of the new Liberian Government.
    So I strongly agree with you, Senator, it is a very serious 
matter.
    Senator Leahy. In that regard, considering what it cost 
when we did intervene, let us be willing to spend a fraction of 
that money now to help the new president succeed. Sometimes 
success is a lot less expensive than trying to clean up the 
mess afterwards, as you know.

                  WESTERN HEMISPHERE TRAVEL INITIATIVE

    The State Department has a program called the Western 
Hemisphere Travel Initiative that was enacted in the 
Intelligence Reform Act. This was one of those ideas that kind 
of zips through without a great deal of debate. Now the 
Department of State and Homeland Security have to implement it. 
We are talking about how to control the Canadian border and the 
Mexican border. It is almost treating them as though they are 
both the same thing. They are not.
    Canada is our largest trading partner. We have got a huge 
trade surplus with them, which we do not have with many 
countries. The State Department has a prototype of the card but 
there is no agreement on what format the card will be. Congress 
has authorized you to begin hiring staff to meet demand. 
Homeland Security still cannot figure out what technology it 
wants to use nor identify what kind of border crossing cards.
    The new Canadian Ambassador to the United States, Michael 
Wilson, strongly opposes the proposed card. I think we are on 
our way to a real train wreck here. I live an hour's drive from 
the Canadian border. I see the travel back and forth. I see 
families that go across. There is a tremendous amount of 
commerce with the border States.
    Your Department has devoted a lot of time to meet the 
deadline. Are you just going to implement a law and then tell 
Canada to catch up? Or are you working with Canada? You have a 
lot of people in Canada who think that they are under attack.
    Secretary Rice. Well, Senator, we are working with both 
Canada and Mexico on this issue. There is a law that requires a 
standard document for passage on the two borders and we 
recognize that these borders are borders on which there is a 
great deal of commerce, a great number, a lot of people. I can 
tell you that the first thought was that we would require 
passports and----
    Senator Leahy. I am sorry? I did not get that.
    Secretary Rice. I said the first thought when this law came 
out was that we would require passports.
    Senator Leahy. Which would be crazy.
    Secretary Rice. I was going to say that the first objection 
to that came from the former Governor of Texas, the President, 
who said that that would of course not work on borders where 
people move so easily. So we went--he asked us to go back to 
the drawing board. We did, and Mike Chertoff and I have worked 
to come up with an inexpensive but standard card that could be 
used for passage on those borders.
    We are working with both Canada and Mexico. We have gotten 
favorable response to the initiative that Mike Chertoff and I 
have taken, and we will try to make it as----
    Senator Leahy. Favorable in Canada?
    Secretary Rice. Favorable from--my Canadian counterpart at 
the time--of course there is a new government in Canada, but my 
Canadian counterpart at the time and Mexican counterpart 
understand that we have the law and they want to help us 
implement it in a way that is as helpful as possible.
    Senator Leahy. You said it is in the law. Has the 
administration considered delaying this for a while or perhaps 
look at it again? If a family of four, for example, from Canada 
is going to have to spend about $250 to come down and visit the 
United States, they are not going to come down to the United 
States to spend money.
    Secretary Rice. Well, it is our hope that, Senator, we can 
have an answer that is in fact inexpensive and that is perhaps 
a one-time issuance, where people can go back and forth who go 
back and forth often. I do think that we need to recognize that 
the law was put there because we did have in fact very porous 
borders on both sides prior to September 11 and there were a 
number of problems on both borders, even on the Canadian 
border, prior to September 11.
    Senator Leahy. There is one store in Vermont with a line 
painted down the middle because, since they changed the border, 
half of it is in Canada, half in the United States. Are we 
going to say, Joe, can you get me that box of Rice Krispies 
over there? I am sorry, I will toss it to you because I do not 
have a passport. I mean, it is going to get that ridiculous.
    Secretary Rice. Well, we will try to make it as simple as 
possible for the people, Senator.
    Senator McConnell. Thank you, Senator Leahy.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Madam Secretary, welcome. I too have had the recent 
experience of going to Southeast Asia and I can report that it 
is fun to go to a country where they like Americans. I was with 
Senator Durbin in France. We did not quite have that sense 
while we were there. It is fun to go to countries that not only 
like Americans, but want to become like Americans themselves, 
want to participate in the international economy, and want very 
much to trade with us.
    I congratulate you on the diplomatic efforts of the people 
we met there. The people you have on the ground there are some 
of our very finest. We do not often give them the sort of 
public accolades that they deserve. But the various Ambassadors 
and other State Department personnel that we met through this 
trip--we were in China, Vietnam, Cambodia, and Thailand. Then 
we made a fueling stop in Kyrgistan, which turned into an 
evening when they were not able to fix the airplane. So we saw 
more of Kyrgistan than we had anticipated, but that was 
interesting too.
    On a more parochial note, there are several matters from 
the fiscal 2006 appropriations bill in which my office has an 
interest. I will not raise them specifically here, but I would 
like to send you some paper on both of these and would 
appreciate whatever help you can give us in nudging these 
things forward a little. They have gotten lost in the pattern.

                            MICROENTERPRISE

    You are aware, I am sure, of my continuing support of 
microenterprise activities. This is something that I pushed 
since I have been a Senator and particularly since I have been 
a member of this committee. Can you focus on that for us just a 
minute as to what is included in the 2007 budget and what you 
see for that kind of activity?
    Secretary Rice. Yes, absolutely, Senator. I can try to 
break out the numbers for you. I will send you the numbers, but 
let me just say that we have had a very strong emphasis on 
microenterprise in a number of places around the world. In 
Africa in particular, we have had a strong microfinancing, 
microenterprise approach.
    I would note that I have visited personally several places 
that are, for instance, women-owned businesses, where just a 
very small loan allows essentially a cooperative of women to 
get together and make goods that they can sell on the market. 
We have been very supportive of microenterprise.
    I also visited in Mexico very recently--it was actually 
when I was first Secretary, I think in my first couple of 
weeks, a trip to Mexico--a place that was not doing 
microlending, but actually a kind of small credit union that 
was helping communities to do microlending. So we feel very 
strongly that, particularly for the empowerment of women, 
microenterprise tends to be a very important tool that we can 
use.
    We used it, as you know, as well in Eastern Europe. So we 
have used it effectively all over. The United States has a good 
deal of this kind of activity, but we have tried to encourage 
it, not just in the United States but also in the international 
development banks, to have a focus on microlending, because it 
really does do wonders and it does so for a very small amount 
of money.
    But I will get for you a breakdown of the complete picture 
on how much is in this current budget.
    Senator Bennett. I would appreciate that. My experience has 
been that there are at least some elements in the State 
Department that are less than enthusiastic about this. I 
understand the nature. Bureaucrats do not like money they do 
not control. I have not run into that during your 
administration. That comes out of previous efforts on this 
issue. As I say, I have been interested in it for the last 
dozen years.
    So I would appreciate it if you and your leadership would 
continue to focus on this. Like you, I have a piece of 
embroidery in my office purchased from a woman in Morocco, who 
had I believe a $50 loan that allowed her to buy the cloth and 
the thread necessary to produce this. She was working on one 
when I was in Morocco and I said: Can I buy that from you? She 
said: No, this one is already sold. So she did another one for 
me and sent it to me, and I keep it as a memento of how 
important that program is.

                             UNITED NATIONS

    Let us talk about the United Nations. The United Nations 
has had some rough times. The Oil for Food scandal I do not 
think has played itself out yet, although we may have most of 
the problem out as a result of the Volcker report. Secretary 
Bolton--Ambassador Bolton has been very forceful in insisting 
on some changes and reforms in the United Nations and at least 
on the surface U.N. officials have expressed support for these 
fundamental changes.
    Can you describe to us where you think we are on that and 
whether or not that is going to impact future budgets?
    Secretary Rice. Absolutely, Senator. We have been very 
strong advocates of U.N. reform, and of course there has been 
complete bipartisan support for pushing that agenda and coming 
even out of the commission that was headed by Senator Mitchell 
and Newt Gingrich. It was a very good road map in a sense for a 
lot that had to go on in the United Nations.
    We have had some progress. There are small things, like for 
instance there is now an ethics office, which one would have 
thought would have been useful some time ago, but we did 
finally get that. There is a peace-building commission, which 
should help with the process of creating peacekeeping forces 
and the infrastructure of stability support for countries that 
are going through post-stability operations. We think that is a 
very--post-conflict operations. We think that is a very useful 
new element.
    As you know, the Human Rights Council, which will replace 
the Human Rights Commission, we supported very strongly that 
there should be a replacement for the Human Rights Commission. 
We did not think that the Human Rights Council quite lived up 
to what it needed to be. So----
    Senator Bennett. You mean the commission?
    Secretary Rice. After the commission--when the Human Rights 
Council was put forward, the new Human Rights Council----
    Senator Bennett. I see, okay.
    Secretary Rice [continuing]. We still thought there were 
considerable problems with it. So we did not vote for it. It 
did go through and we have agreed that we will do everything 
that we can to make it work because we think it is important to 
have a Human Rights Council.
    The problem with the Human Rights Commission was at the 
time that Sudan was being accused of genocide it was actually 
sitting on the Human Rights Commission. It makes a joke of the 
notion of a Human Rights Commission. So we are hopeful that the 
new Human Rights Council will be better, although we are 
concerned about some of the aspects of it.
    On management reform, which to us is really the key, that 
is improving the secretariat and the way that it functions, 
improving and being able to streamline personnel decisions, 
being able to create efficiencies in management, and perhaps 
most importantly, oversight of things like peacekeeping 
missions, some of which have had some very bad things happen 
within them, or something like the Oil for Food program.
    The secretariat needs to be reformed and there needs to be 
management reform. We have been the leaders on that. We have 
been very clear we agreed to a 6-month budget this time because 
we were not going to agree to an annual budget until these 
management reform issues are addressed.
    So we are working cooperatively, but we have also made very 
clear that we have to be able to--I have to be able to come to 
you and say that the American taxpayer dollar is being spent 
well in the United Nations and that the current structures do 
not allow us to have the kind of oversight and transparency and 
accountability that we need. So we will continue to press this 
reform agenda very hard.
    Senator Bennett. Thank you.
    I just close with a comment I just received in a 
conversation this morning. Senator McConnell talked about his 
conversation with the GI from Kentucky. A very prominent figure 
who has experience in this whole area said to me that the new 
parlor game in Europe, he said, after everybody has had a nice 
dinner and a few drinks and the uninteresting guests have gone 
home, they sit around and they play this parlor game, which is: 
What if, and then you fill in the blank with another country's 
name, had the power and influence that America has? And they 
speculate, what would the world be like if, France, Germany, 
China, India, fill in the blank, had the kind of influence and 
control that America has.
    He said in every case, regardless of how they play it, the 
result is a disaster compared to the kind of world we have. You 
have an enormous responsibility, Madam Secretary, for the 
entire world, not just this country, and we appreciate the 
competent way in which you handle it.
    Secretary Rice. Thank you, sir.
    Senator McConnell. Thank you, Senator Bennett.
    Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman.
    Madam Secretary, thank you for joining us. Madam Secretary, 
last year an overwhelming bipartisan majority of the Senate 
voted 79 to 19 that 2006, this year, would be a year of 
transition in Iraq; change would take place. The Iraqis would 
assume more responsibility for their own future. The United 
States would start looking to the day when we could leave 
successfully. We would hold the Iraqis responsible for good 
governance and protecting their own country and the President 
would report to us on a timely basis the progress that we are 
making.
    Many of our colleagues have just returned from Iraq. They 
spent the last year there--pardon me, last week there. Some of 
them came back to our luncheons today with reports that were 
not encouraging. Though it may be true that the number of 
American soldiers being killed on a daily basis has gone down, 
the fact is that the killing in Iraq has increased. Some 
suggest we are in the midst of a civil war, of sectarian 
violence. This week, of course, American troops were used in an 
attack with Iraqi soldiers on a Shiite mosque, or at least near 
a Shiite mosque, involving the Sadr militia.

                                  IRAQ

    The question I would like to ask you is this. For the last 
several weeks, the President has been counseling patience to 
the American people. In fact, last week when the President was 
asked when the day would come when there would be no U.S. 
forces in Iraq, he said: ``That will be decided by future 
Presidents,'' suggesting at least 2.5 more years that we would 
see American ground troops in Iraq.
    Is that not exactly the wrong message to be sending the 
Iraqis? Should they not at this point in time believe that we 
plan on leaving, that they have the responsibility to protect 
their own country? Is not the real test of the success of your 
policy when Iraqi soldiers will stand and fight and be willing 
to die for their own country so that American soldiers can come 
home, a day that we have not seen yet?
    Secretary Rice. Thank you, Senator. I do not think there is 
any doubt that it is the responsibility of the Iraqis to secure 
their democracy. The United States and the coalition of willing 
partners liberated Iraq from Saddam Hussein. But I think the 
Iraqis themselves understand that the creation of a functioning 
democracy is in fact their responsibility.
    What we are there to do is to help them to get the tools 
and the capability to defend that democracy. They have a very 
difficult task because it is a country in which, first of all, 
in which that has never been done, in which the politics was 
always by either repression or violence. They are now trying, 
on the basis of the three elections and the constitution, to 
form structures of government and habits of governance that are 
indeed democratic and therefore require compromise and 
politics.
    They need our support in doing that. That is the kind of 
support that Ambassador Zal Khalilzad is giving them. It is the 
kind of support we intend to give them as we help them to make 
their ministries more capable, so that their ministries can 
deliver. It is the kind of support that we intend to give them 
in helping their provisional leaders to become more capable.
    Senator Durbin. But I guess the point I am asking you is, 
should they not sense the feeling that I feel as I travel 
around the State of Illinois? The people I represent are 
impatient--2,316 of our best and bravest have died. 15,000, 
16,000, 17,000 wounded. Should not the Iraqis know that we are 
not going to stay there forever, sit by patiently while they 
work out their governmental difficulties? Should they not know 
that we want to bring our troops home as quickly as possible? 
When the President says be patient, is that not the wrong 
message?
    Secretary Rice. Senator, I think they do know that we want 
to come home. Indeed, I think the great majority of them want 
us to come home because they want their own responsibility. We 
are training their security forces. Their security forces are 
standing up and dying in the line of fire in Iraq. We mourn 
every one of our own deaths, but Iraqis are dying. They are 
taking that responsibility.
    Many brave Iraqis are dying because they are willing 
against terrorists to speak out for the need for democracy and 
for justice, judges for instance who have been killed because 
they were willing to try people. So the Iraqis are taking 
responsibility. They just do not have at this point the tools 
to fully secure themselves.
    We have helped other----
    Senator Durbin. For 2 years--go ahead.
    Secretary Rice. I am sorry. We have helped other states to 
have those tools. I think that the patience that the President 
was referring to is the need to be willing to give them the 
tools or to help them develop the tools, not the patience to 
continue to shoulder the responsibility ourselves. I think they 
are doing it.
    I would just suggest on the government formation that we 
are pressing them that this needs to get done and get done very 
soon. But they are doing something very difficult. Sunnis were 
not a part of the political process until very recently and 
they have now been brought into the political process. They are 
really dealing with some of the hard issues that they must deal 
with in order for this government to function.
    Senator Durbin. I would just say, Madam Secretary, we have 
given them over the past 3 years many things, including a lot 
of American lives and American soldiers risking their lives, 
billions of dollars. Support that we have never given to other 
countries in the past we have given to them. We have stood by 
them, deposed their dictator, tried to bring them to the point 
of self-governance.
    My suggestion is if this is descending into a civil war, as 
Mr. Allawi suggested, if we have opened Pandora's box, as our 
own ambassador, Mr. Khalilzad, has said with the sectarian 
violence there, that there ought to be a clear message from our 
Government to their government that now is the time for them to 
accept responsibility. For 2 years we have been told, we are 
training soldiers, we are training policemen, things are going 
along just fine. Yet the American soldiers are still there. The 
National Guard units are still being rotated into Iraq. The 
families back home are going through the stress of separation. 
That still continues to this day.
    I just do not sense the feeling in the administration, as 
we voted in the Senate, that this is truly going to be a year 
of transition, that we will see American troops coming home. 
That is why the President's message I think does not make it 
clear and may send a mixed signal at a time when we should be 
extremely clear.
    Secretary Rice. Senator, the President's message I think, 
first of all, was to a very particular question. But he has 
been very clear that we will come home when the Iraqis are 
capable of performing these functions themselves. I think 
General Casey has testified that we--it will all be conditions-
based, but we anticipate that there can be reductions of 
American forces.
    But I think we have to remember why we are in Iraq. I know 
that there were disagreements about whether or not it was time 
to deal with the threat of Saddam Hussein. But by dealing with 
the threat of Saddam Hussein, by taking out the most murderous 
and aggressive dictator in the region, we have helped to create 
conditions in the Middle East in which it can be a different 
kind of Middle East, a Middle East in which you are not going 
to have the kind of ideologies of hatred that led people to fly 
airplanes into buildings on September 11.
    That is a long-term project, is to leave a Middle East to 
our children and to our grandchildren that is not going to be 
poisonous in the way that the Middle East is currently 
poisonous. So I think when we think about what support we are 
giving to the Iraqis or the Afghans or to the broader Middle 
East initiative, that we think about it not just in terms of 
how it will make their lives better, but in terms of how it 
will make our lives more secure. That is why we are in Iraq.
    Senator Durbin. You mentioned the coalition that came 
together for the invasion, the coalition of the willing, as the 
administration called it, primarily the British and others who 
were supporting us, but the British larger in number than 
others. That coalition has dwindled, has it not, over the 
years? It has really become more and more an American force, 
with few allies actually on the ground risking their lives.
    What does that tell us about the world view of what we are 
trying to achieve in Iraq?
    Secretary Rice. Well, in fact the coalition with a few 
exceptions has stayed relatively stable. We have had troops 
from as far away as South Korea. The South Koreans just agreed 
to re-up on their presence there. Poland just agreed to re-up 
on their presence there. Some forces have been taken out, but 
the countries have gone to other kinds of missions. For 
instance, the Dutch, who removed their forces, are now very 
integrally engaged in the training process for Iraqi forces.
    So I think you would find that if you went down the list of 
coalition members, with a few exceptions, we have lost very few 
and we have lost almost none in terms of support for the Iraqi 
enterprise, even if their forces are no longer on the ground.
    Senator Durbin. I do not question that many nations have 
sent something, and we thank each one of them for doing that. 
But it clearly is an American undertaking, with the help of 
some coalition partners, and it has become more American by the 
day as they have reduced their numbers and our troops have had 
to stand alone, or, I should say, stand more to themselves and 
not with the broader coalition that initially started.
    I think that is a troubling development. It suggests that 
if the goals you describe, which sound so good as you speak 
them, were so clear to the rest of the world, they would be 
joining us, and they have not.
    Secretary Rice. Senator, I just think--and I can get you 
the numbers, but I think with very few exceptions the numbers 
of states actually represented on the ground is substantially 
as it was when we started. The difference is that we are using 
more Iraqi forces. That has allowed us to rely less on some 
coalition forces. There are places that are now stable where 
coalition forces can actually be removed because those places 
are stable.
    But yes, the United States bore, really commensurate with 
our size and military power, most of the weight of the military 
operation. Britain of course was the second largest and there 
have been contingents from others. But I think it is important 
not just to focus on the numbers. The commitment of all of 
these countries to actually send their soldiers into harm's 
way--Japan for the first time since World War II to send its 
forces from the Asian continent; South Korea, to send its 
forces into Iraq; small countries like Estonia and Lithuania 
and Latvia to send their forces into Iraq, because they 
understand the price of freedom--I think is something we ought 
to applaud.
    Senator Durbin. Thank you, Madam Secretary.
    Senator McConnell. Thank you, Senator Durbin.
    Senator Brownback.
    Senator Brownback. Thanks, Mr. Chairman.
    Welcome, Madam Secretary.
    Secretary Rice. Thank you.
    Senator Brownback. Glad to see you here and congratulations 
on a lot of initiatives you have going. You have got a lot of 
irons in the fire and I am appreciative of them.

                                  IRAN

    I want to talk about, if I could, Iran and Sudan and Chad, 
and then finish up on North Korea, just to give you kind of the 
sequence of things I would like to talk about. First, I 
appreciate your request for the $75 million on Iran and 
democracy-building in the supplemental, the bulk of that 
request for broadcasting purposes. I wondered if you could 
outline for us your current state of thinking of how we address 
the issue of Iran, the lead sponsor of terrorism, the lead 
state sponsor of terrorism in the world, apparently seeking 
nuclear technology for weaponizing purposes. I do not know that 
anybody knows that for sure. But I would appreciate your 
thinking about how do we go at Iran?
    Secretary Rice. Thank you, Senator. I think there is no 
doubt that Iran is the single biggest threat from a state that 
we face. As you have put it, it is the fact that they are 
seeking, we believe, a nuclear weapon, indeed they are 
seeking--or at least they are seeking under cover of civil 
nuclear power to acquire the technologies that would make them 
capable of creating a nuclear weapon. They are the central 
banker for terrorism in the Middle East and problems in Iraq, 
problems in Lebanon through Hezbollah, problems in the 
Palestinian territories through some of the arms that they use 
of terrorism, and of course it goes without saying an unelected 
few who repress the aspirations of the Iranian people.
    So we have built an international coalition--the diplomacy 
I think has gone relatively well--to tell the Iranians that 
they will be isolated from the international community if they 
continue to seek the weapons, the nuclear activities that they 
are seeking, that could lead to a weapon.
    We need now to broaden that thinking and that coalition, 
not just to what Iran is doing on the nuclear side, but what 
they are also doing on terrorism. Those are some of the 
discussions that I have with these same states, that we cannot 
on the one hand talk about the need for a peace agreement in 
the Middle East and turn a blind eye to what Iran is doing in 
the Palestinian territories. We cannot talk about getting rid 
of Syrian influence in Lebanon and having democracy in Lebanon 
without thinking about what the Iranians are doing for 
Hezbollah.
    So we have a number of tools I think at our disposal, 
including in sharpening the contradiction between the Iranian 
people and a regime that does not represent them through our 
democracy activities, through broadcasting, through support for 
nongovernmental organizations there, through highlighting the 
Iranian human rights record, and if necessary within the U.N. 
Security Council going to other measures that, should the 
Iranians not turn around on their nuclear effort, going to 
other measures that would further isolate the Iranian 
Government.
    So we have a full program, but I think diagnosing the 
problem is the most important, and it is that Iran is a problem 
not just on the nuclear side, but also concerning terrorism and 
its human rights record at home.
    Senator Brownback. Are you getting cooperation from the 
Europeans to a fair degree on this? It seems like we are 
getting a lot more--I hear of a lot more, but I am not seeing 
the actions by the Europeans.
    Secretary Rice. We have been very united with the Europeans 
on the nuclear issue, completely united. Indeed, we have been 
able to bring the Russians along to a degree, but we have had 
to work harder on that and on the Chinese. The Europeans also 
increasingly note the problems with the Iranian regime. In this 
regard, the rise of President Ahmadinejad, who talks in very 
clear, shall I say, ways about the ambitions of the Iranian 
regime, has made it clearer to allies who thought, I think, 
that the Iranian regime was just a normal regime whose 
interests could be accommodated, to really worry about the true 
nature of the Iranian regime. When you have a president of a 
country saying that another country should be wiped off the 
map, that is just not right in civilized company in the 
diplomatic arena, and I think it has helped crystallize what 
kind of regime Iran really is.

                             SUDAN AND CHAD

    Senator Brownback. I want to speed into other topics 
quickly. On Sudan and Chad, it looks like the genocide in Sudan 
is spreading to Chad and many of the same tools being used. I 
am hopeful that we can get NATO involved in this operation. The 
United Nations, the African Union has worked some and been 
somewhat helpful, but it has not stopped it at all, and it 
appears to be starting back up again.
    Do we have a decent chance of getting NATO involved in the 
Sudan-Chad border area?
    Secretary Rice. Well, I think we certainly have a very good 
probability of getting NATO involved in support of first the 
African Union mission. NATO is there, as you know, providing 
some support. But perhaps in a more robust way logistically. 
One of the problems is mobility for the African Union forces, 
so you can imagine NATO more helpful on some of the mobility 
issues so that the monitors can go out to places, which when 
there is monitoring the violence is less. It is just that it is 
a very, very big area.
    We also expect that when there is a U.N. force, which will 
be more stable and more capable, that NATO can contribute also 
to the effectiveness of that force. The President talked with 
NATO Secretary General Yabu Skeffer when he was here last week. 
I have also had conversations, Senator, just very recently with 
the head of the AU and with the Nigerians, who have great 
influence in the AU, because the AU needs help. Sometimes they 
send mixed signals about whether they want help because the 
government of Sudan sends mixed signals.
    We are all for a peace process going forward and we are 
working very hard on that peace process. But we also have to be 
sure that the violence does not worsen in the meantime. You 
rightly note that western Darfur, where the troubles in Chad 
threaten to really create a really bad situation, we have got 
to deal with that, and we can only deal with that with more 
robust security forces.
    Senator Brownback. Well, I think we are really going to 
have to step it up. I applaud what the President has done on 
it, but people are still dying and they are dying now spreading 
into Chad. I appreciate what you have done. I appreciate 
particularly what the Assistant Secretary has done, being over 
there four times. The President is very aware of it. But the 
genocide continues and it is spreading now into another 
country. I would really implore you to step it up further.

                              NORTH KOREA

    I noted in one of your testimonies recently you were 
calling for North Korean refugees to be admitted to the United 
States. Thank you. It is in the North Korean Human Rights Act, 
to allow that to take place. I talked with Secretary Chertoff 
about allowing them into the United States. That has been the 
holdup before, has been the Department of Homeland Security. So 
I am really hopeful we can.
    I think it really would send a strong signal to the North 
Koreans that we are serious about this and that the human 
rights issues are at the core of the violations of what this 
regime has done in North Korea. In 2 weeks we will have a 
group, a North Korean rally here on Capitol Hill with a number 
of refugees. I hope, if your schedule would allow it, you or 
even the President could meet with some of these refugees. They 
have incredible stories to tell of what they have experienced 
and the difficulty that they have had.
    But I do think us going not just at the nuclear questions 
on the Six Party Talks, which I think is good and important, 
but to expand the debate into the human rights area, where the 
North Koreans are amongst the world's worst, if not the world's 
worst on human rights violations--and you have got a lot of 
people coming out now to talk. They can tell real stories 
about, this is what I experienced there. It would be very 
useful and an important thing to tell on what this regime is.
    Secretary Rice. I agree completely, Senator. We also, as 
you know, have a human rights envoy in Jay Lufkowitz, who is 
trying to spread the word also around the world. We think one 
of the important elements here is to mobilize public opinion 
internationally about the human rights situation in North 
Korea.

                             AID TO AFRICA

    Senator Brownback. We are working on a bill on African aid, 
mirrored after the malaria effort that the President did last 
year. When we dug into this topic, we found that about 90 
percent of our malaria funding was going to conferences and 
consultants, and most of the African leadership was saying: We 
know what to do here; we do not have any money to do it with. 
So they wanted assistance for bed nets, sprays, drugs, and they 
said that will really help. The President redirected the 
funding.
    What I have noticed in the African aid area the times I 
have been there is that we have put millions, billions of 
dollars into aid in Africa and there are many countries that 
are worse off today than 20 years ago. A lot of the money is 
scatter-shot. A lot of the money is spent on conferences and 
consultants and in capitals, and the problem is outside of the 
capitals and it is not needed for another building in the 
capital city.
    So I would like to see us--and we are working on this--to 
go at this approach, where we get, let us say half of the aid 
that goes to Africa goes for things or training Africans to do 
things, like doctors or teachers, rather than conferences and 
consultants. We will be working further with your office on 
that.
    Secretary Rice. Well, thank you, Senator. We will be a 
willing partner in that, because I think building capabilities, 
not building dependency, is part of this. I think also making 
sure that we are getting out and really touching people's lives 
is very important. Randy Tobias will I think be a focal point 
for that should he be confirmed.
    Senator Brownback. I have already met with him. Thanks.
    Senator McConnell. Thank you, Senator Brownback.
    Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    Madam Secretary, I just returned from meeting with a lot of 
your people in Seoul, Korea, and in Delhi, in New Delhi. Some 
of the things just seem to make sense to me, that we ought to 
be using some of that malaria money for DDT spraying. That 
would save a whole lot of lives with minimal risk.
    But in North Korea the anecdotes we had, I tell my 
colleague from Kansas, what they told us: They rescued a full-
grown man from North Korea who had fallen in the river. They 
outfitted him--it was easy to outfit him because the full-grown 
man was 5 foot 1 and weighed 120, because of the near-
starvation diets they live on.
    They have got a great project, an industrial park, just 
over the line in North Korea. The stories we hear is that the 
North Korean Government would be paid $50 a month for the 
labor, the laborers, and the laborers may get a whopping $5 or 
$6 a month out of it. That obviously, I concur with Senator 
Brownback on the extreme problems there.
    I want to commend your operations in India. I had a 
thorough briefing with your USAID Director there and they seem 
to be doing the proactive things, bringing in all the different 
resources that are needed to help India with its tremendously 
overwhelming poverty issue in so many of the rural areas.
    One of the things I particularly commend them is their 
participation in the President's agricultural knowledge 
initiative in India. The USAID office there is going to U.S. 
land grant colleges, which makes a whole lot of sense to me, 
and they will bring in the ag econ experts, they will bring in 
farm credit resources, and they also need to bring in food 
processors.

                              AFGHANISTAN

    Now, India is going to have to wake up and lift some of the 
regulatory redtape burdens on businesses. I told them that we 
are more than willing to help if you have a system under which 
U.S. businesses can come in and provide assistance. But I 
recall the question I have asked you previously, because when I 
returned from Afghanistan I learned from the president of 
Afghanistan and people over there, including our uniformed 
officers, that they are not getting the agricultural assistance 
that they need. It was apparently a contractor had not been 
able to provide those resources.
    It was my recommendation that USAID reprogram a small 
amount of that money and work in concert with our very able and 
dedicated land grant colleges to bring extension service 
personnel over. I wonder if there are funds that could be 
reprogrammed, because it is critical in the effort to stabilize 
Afghanistan when we--when, let us say, not ``we,'' but when the 
poppy fields are destroyed, the poppy farmers have an 
alternative source of income and some way of getting back on 
their feet, whether it is pomegranates or other crops that they 
raise.
    Is there some way that money could be reprogrammed? Or what 
can you do on that?
    Secretary Rice. Well, we do have a substantial alternative 
livelihood program going in Afghanistan to try to support the 
anti-drug efforts there. I think, Senator, at one point we 
talked about needing to have a strong agricultural program in 
Iraq as well. Of course, we, as you say, have this new 
initiative in India.
    As I understood your intervention the last time, you were 
asking, though, more about the structure of what we are doing 
than just are we spending money; in other words, the use 
perhaps of extension programs and of the land grant colleges. 
We will take a look at whether our programs are able to fully 
deliver. I am actually a big fan of the land grant colleges. I 
know the good work that they have done in agricultural 
extension. They are very popular because of what they have done 
in India during the Green Revolution and going forward.
    Again, it is something that we will certainly want to look 
at with our Afghan people. I do not know about the 
reprogramming of moneys that have already been dedicated to 
what is a substantial program on alternative livelihoods, but 
it is something we would certainly want to look at in the 
structuring of our programs. So I think it is a very useful 
thought.
    Senator Bond. I have done a lot of inquiry about the 
effectiveness of our agricultural efforts in Afghanistan, both 
from knowledgeable experts in agriculture from the United 
States, our leaders in that part of the world, and from the 
Afghan leadership itself. The simple answer is it is not 
working, and I can give you more details if we have a face to 
face discussion. But it is not working and we are just trying 
to make sure it works, because I think everybody realizes if we 
cannot wean the Afghan agriculture off of its poppy production 
then we are going to have continuing problems.
    It should not be that hard once you give the farmers on the 
ground an alternative crop. They are not getting that much from 
poppies. It is the warlords who are making the money off of it. 
But indigenous agriculture, if brought back, ought to be able 
to give them the livelihood, and we need to deal other ways 
with the warlords to get them out of the production business.
    Well, let me leave it at that.
    Secretary Rice. I would like to--we should talk about that, 
Senator. I would like to hear what you have heard.
    Senator Bond. If you would give me a call----
    Secretary Rice. I will do that, absolutely.
    Senator Bond. I would be happy to discuss that with you.
    Secretary Rice. Thank you.
    Senator Bond. Thank you very much, Mr. Chairman, and we 
appreciate, Madam Secretary, all you are doing. I would say 
that as I have traveled around the world your efforts and the 
President's efforts have really inspired people in many 
countries. India is one of the most enthusiastic countries. 
They talked about the nuclear initiative that the President 
proposed. That was new to me, but I have done my due diligence 
and I agree with the President and will strongly support the 
President in his proposal that can provide the energy that 
India needs to begin to bring its population up, particularly 
in the rural areas. Thank you.
    Secretary Rice. Thank you, Senator.
    Senator McConnell. Thank you, Senator Bond.

                                 BURMA

    Thanks to the leadership of the President and you, the 
world's list of pariah regimes is slightly smaller than it was 
when you came to office. We can safely remove from the list 
Iraq and Libya. Regretfully still on the list is a country that 
I have a great deal of interest in, that you and I have 
discussed on numerous occasions, and that is Burma.
    Nothing ever seems to change in Burma since the democratic 
election in 1990, which was swept by Aung San Suu Kyi's party, 
the National League for Democracy. Shortly after the election 
Suu Kyi was put under house arrest and, except for a brief 
period a couple of years ago, she has remained there for 16 
years.
    I am told the Malaysian foreign minister went to the 
country recently. I do not know whether he requested to see Suu 
Kyi or not, but he did not. In fact, he did not even see Than 
Shwe, the top general.
    What in your view could the United Nations do to begin to 
squeeze this regime? What are you and the administration doing 
to try to move the United Nations in that direction? If we are 
having problems increasing pressure against the regime, who is 
preventing progress toward shedding the kind of light on that 
regime that it well deserves and is the only way that gives us 
a chance to change it down the road?
    Secretary Rice. Thank you, Senator. Well, absolutely Burma 
is one of the very worst regimes in the world. We have 
succeeded over the last year in getting a discussion of Burma 
at the Security Council. We finally were able to remove the 
blocks to doing that and I think that did raise the profile for 
a lot of countries that perhaps did not focus as intensely on 
what was going on in Burma. For instance, a number of my 
European colleagues told me that after that discussion they 
went back and looked at what they had been doing on the Burma 
human rights dialogue and that they are now increasing their 
activities concerning this. So that is very helpful.
    But the truth of the matter is we need more help in the 
region. We need from the Southeast Asians and from ASEAN, which 
has from time to time told us that they would engage in quiet--
--
    Senator McConnell. Other than canceling the ASEAN meeting 
which was originally going to be in Rangoon this year, have any 
of the ASEAN countries developed greater interest in this 
problem?
    Secretary Rice. ASEAN actually issued a reasonable 
statement on Burma and asked that the Malay chair go to Burma. 
I think that the thought was that they would see Aung San Suu 
Kyi. I guess that that did not happen, but they continue to 
press to see Aung San Suu Kyi. That is a good thing.
    We have pressed very hard--the Indonesian president went to 
Burma and I know that he did talk very directly with the 
Burmese about their isolation. We need actually China to be 
more active on this front. We have our human rights problems--
--
    Senator McConnell. India as well, I suppose.
    Secretary Rice. India as well.
    We have our human rights problems with China, but it is not 
like Burma, and we would hope that they would raise some of 
these issues. India is a democracy and of course should raise 
this, and the president of India assured us that he would. So 
we are working the diplomacy. We have gotten a couple of good 
statements. I think we have gotten renewed interest from the 
Europeans.
    Of course, we are sanctioning everything concerning Burma. 
We do not allow travel and the like. So we have taken those 
steps.
    Senator McConnell. I was the author of that bill.
    Secretary Rice. You were, and we use it to its fullest.
    Senator McConnell. We both know it is not likely to do much 
good unless we get more cooperation.
    Secretary Rice. That is what we are trying to do.
    I do think that we have, by raising the profile, we have 
brought other countries on board. Frankly, I think the ASEAN is 
somewhat embarrassed by Burma and is therefore somewhat more 
active.
    I found myself in an unusual position up at the United 
Nations, Senator, during the U.N. General Assembly. We had an 
ASEAN meeting and I suddenly realized the Burmese foreign 
minister was in attendance. He launched into a discussion about 
how the biggest problem that was faced was drugs. I was glad 
actually at that point that I did have a chance to confront him 
directly about Burma's human rights record. So I think we have 
to continue to do that and we have to continue to press 
countries in the region to take an active and more public line 
concerning Burma. Places outside of the region, places like 
Europe, can make a difference.
    Senator McConnell. When you meet with the Chinese and the 
Indians, is Burma your agenda?
    Secretary Rice. Absolutely, every time. Not just my agenda. 
It is on the agenda for the President. He raises it as well.

                                BELARUS

    Senator McConnell. One other country I would like to 
discuss. I had a chance on a trip last summer to meet with some 
of the potential opposition from Belarus. What do you make of 
the status of the opposition in the wake of the unfair election 
that occurred recently, and do you have any hope that that 
regime might change from within.
    Secretary Rice. Well, I am glad that there was opposition 
this time, Senator. I think that is an achievement in a place 
that is the last really bad dictatorship in Europe. The 
Lukashenka Government is beyond the pale in comparison to 
anybody else in Europe.
    The fact that there was actually a single opposition 
candidate was in large part thanks to efforts that we and the 
Europeans and the Lithuanians had made to encourage the 
opposition to find a single focal point around which to rally, 
and they did that. I was with them in Lithuania and at that 
time they were very fractured. They came together. They were 
able to put forward a single candidate. He actually did get 
double digits in the vote, which is extraordinary given how 
unfair this election was.
    Senator McConnell. I assume there were no international 
observers?
    Secretary Rice. There were. The OSCE was there and they 
declared it not free and fair. But there were observers there. 
That is a step forward. I am told that, despite the unfair 
playing field, there was a lot of press coverage, even some 
underground press about what is going on there. I noted today a 
little news item that Lukashenka has for some reason decided to 
put off his inaugural for a few days. We do not know the reason 
for that, but I do know that the opposition is planning to put 
up posters that continue to challenge him. People stood in the 
streets. They were arrested. They are still fomenting against 
the regime.
    So it is the nascent, incipient stages of opposition in 
Belarus. But it is far more lively than, frankly, I would have 
guessed a year ago when I met with what was a very fractured 
opposition in Belarus. I do not believe that Lukashenka under 
these circumstances and under greater isolation--you know that 
the Europeans have put forward some further sanctions. We also 
will put forth some further sanctions.
    I think he has been surprised at the opposition and the 
fact that there is opposition to him. I think it is a good 
thing.

                           REFORMS IN UKRAINE

    Senator McConnell. Finally, I had a chance also to be in 
Ukraine last summer, and we have all followed with interest the 
elections there. Ukraine seems to be shifting back in the 
direction which it shifted away from during the Orange 
Revolution. I am curious as to what your observations are about 
that election and what it portends for the reform movement in 
Ukraine, a country desperately in need of genuine reform.
    Secretary Rice. Well, Yanakovic, the deposed leader the 
last time around as a result of the Orange Revolution, did win 
the single largest vote count, but it was not large enough to 
form a government by any means. In fact, Team Orange, the two 
separate parts of it--part of the problem was that there was a 
split in the people who led the Orange Revolution. But if you 
put those numbers together they actually have greater vote 
count than Yanakovic did. Tomoshenko and Yoshenko together have 
a greater vote count than Yanakovic did.
    So I think it is probably fair to say that the expectations 
of what the Orange Revolution could deliver probably were out 
of line with what they were actually able to deliver. They did 
have some splits, personality differences, policy differences, 
that weakened their united effort. But we will see now what 
happens in government formation.
    I am encouraged by the fact that you still had, despite all 
the problems that the reform movement has had, that you still 
had more votes on that reform side than you had on the side of 
the Party of Regions, which is the Yanakovic----
    Senator McConnell. Under their system, what does that mean, 
that the reformers will have a majority in the parliament?
    Secretary Rice. Well, it means that now you have separate 
blocs and they will now have to form a government. So some 
combination of blocs have to come together in order to appoint 
the prime minister.
    I should say that of course we will work with whatever 
government comes into being there. It is our hope that whatever 
government comes into being, whether that is the bloc that 
includes Team Orange or if it is the Yanakovic bloc, is going 
to be respectful of what the Ukrainian people have clearly 
spoken for, which is reform, independence of Ukrainian policy, 
and a desire to have good relations with the West.
    So we will see how this turns out, but that is what is now 
happening. There were several blocs of parties, several parties 
that got votes. They now have to form a government and no 
single party has enough to form a government on its own.
    Senator McConnell. Well, Madam Secretary, thank you so much 
for being here today.

                   ADDITIONAL SUBCOMMITTEE QUESTIONS

    There will be some additional questions which will be 
submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.]
               Question Submitted by Senator Thad Cochran
    Question. President Ellen Johnson Sirleaf addressed a Joint Session 
of Congress 2 weeks ago, and met with Congressional leaders and the 
President to discuss her reform agenda for Liberia. Africa's first 
woman president made a very positive impression on many of us in 
Washington.
    After decades of civil war, Liberia has no shortage of problems. 
Given America's historical ties to that country and support for 
President Johnson Sirleaf's reform efforts, the House included an 
additional $50 million for assistance for Liberia in its supplemental 
bill.
    Madam Secretary, do you support additional funding for Liberia--a 
democracy dividend, if you will--and is it in America's security 
interests to improve governance in Liberia?
    Answer. Thanks to strong Congressional support in fiscal years 
2004, 2005, and 2006, the United States has been able to play the 
leading role in helping Liberia begin recovery from 14 years of civil 
war, generations of corruption, and a near-total absence of government 
services and of respect for human rights and the rule of law. This 
funding is key to helping the new government of Liberia establish the 
conditions for consolidating the peace and building prosperity.
    Our fiscal year 2006 programs, in addition to the Administration's 
fiscal year 2007 request of $89.945 million for Liberia, will 
accomplish our goals of reconstructing schools, hospitals, and 
government buildings; expanding primary health care and post-war 
rehabilitation and reconstruction activities; providing civilian police 
to the U.N. mission to monitor, mentor and reform the Liberian National 
Police; supporting security sector reform to create a professional, 
capable and fiscally sustainable Liberian military; supporting the 
return and reintegration of Liberian refugees and internally displaced 
persons; and many other activities.
    We plan to sustain the long-term, multi-year commitment necessary 
to support Liberia's reconstruction efforts by maintaining programs and 
funding levels to meet Liberia's needs. We have ongoing discussions 
with the Liberian government about the country's needs and will 
continue to consider those needs in conjunction with our policies and 
budget priorities. We will, of course, work closely with Congress in 
formulating and pursuing these priorities.
    As for the impact on America's security interests of improving 
governance in Liberia, the connection is clear. Liberia's civil 
conflict was driven in large measure by a history of poor governance, 
exclusion, and corrupt misrule. Improved governance will enhance 
Liberia's stability and prevent conflict; help address the needs and 
aspirations of Liberians; and set the foundation for investment and 
economic growth. Accomplishing these goals will clearly advance 
America's security interests in West Africa.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

    Question. Reports of executions in Iraq continue to grow. The New 
York Times this weekend, described a pet shop owner, a Sunni, seized by 
gunmen. His body was found the next morning at a sewage treatment 
plant. He had been hog-tied, his bones broken, his face and legs 
drilled with power tools, and finally he had been shot. In the last 
month, hundreds of men have been kidnapped, tortured, and executed in 
Baghdad. The city's homicide rate has tripled from 11 to 33 a day, 
according to military reports. The period from March 7 to March 21 was 
typically brutal: at least 191 bodies, many mutilated, surfaced in 
garbage bins, drainage ditches, minibuses, and pickup trucks.
    Former Prime Minister Ayad Allawi has said, ``If this is not civil 
war, then God knows what civil war is.'' Prime Minister Jaafari has 
blamed ``foreign terrorists'' for these attacks on Sunni civilians 
rather than Shiite-militias; but he depends on the political support of 
those militias.''
    Where does the Administration draw the line between sectarian 
violence and civil war? Whichever term you prefer, how does this 
growing violence, these waves of executions, affect U.S. policy in 
Iraq?
    Answer. The increase in sectarian violence is a major concern to us 
and is one of the prime issues raised at every level with Iraqi 
governmental and political leaders. Nonetheless, we do not see this as 
a civil war. In Iraq, only terrorist leader Abu Musab al- Zarqawi and 
his Al-Qaida in Iraq organization is calling for civil war.
    Given the large turnout in Iraq's elections and the broader support 
expressed for the efforts to form a government inclusive of all Iraqis, 
we believe that Iraq can and will overcome its ethnic and religious 
differences. Indeed, Iraq's political leaders are committed to a 
government of national unity. Progress on the formation of that 
government of national unity continues despite an upsurge sectarian 
violence that began with the February 22, 2006 bombing of the Golden 
Mosque in Samarra. Those who attacked the Golden Mosque sought to 
exploit divisions among the Iraqi public and the political leadership 
to foment and prolong sectarian strife. Iraqi government and religious 
leaders alike, in a demonstration of national unity, condemned the 
attacks, called for an end to sectarian unrest, and for security forces 
free from sectarian and militia loyalties.
    The United States and international community joined Iraqis in 
denouncing the attacks and underscored the importance of national unity 
and defying the terrorists and extremists who seek to provoke such 
conflict. The USG has been in touch with Iraqi leaders to urge calm and 
will do our utmost to support the Iraqi government's efforts to achieve 
it.
    The violence in Iraq only underscores the importance of our mission 
there. Helping the Iraqi Security Forces develop their capacity to 
secure their own country while carrying out a campaign to defeat 
terrorists and neutralize the insurgency is and continues to be our 
objective.
    Question. Russia has become an increasingly difficult partner for 
the Administration, in Europe, in the countries Russia thinks of as its 
``near abroad,'' and beyond. The Administration has worked to 
strengthen ties with Russia, but the effort seems to have turned sour. 
What went wrong? The Russian government has tightened its grip on non-
governmental organizations at home. It has a mixed record in dealing 
with Iraq and Iran, and Russian authorities may have passed sensitive 
military information to Saddam's government before the start of 
military operations in Iraq. These are matters of serious concern, as 
are Russia's outreach to Hamas, and its support for the undemocratic 
regime in Belarus. How does the Administration intend to face these 
challenges? What trajectory do you see the U.S.-Russian relationship 
following today? Does Russia still merit a place at the table with the 
members of the G8?
    Answer. The United States is deeply concerned and candid about 
problems in United States-Russia relations and United States-Russia 
differences. These include the direction of Russia's internal 
evolution, including democracy, and many aspects of Russia's relations 
with its neighbors.
    In discussions with Russian officials, we have been frank about our 
differences and concerns. For example, we made clear our concerns about 
the new NGO law, through both diplomatic channels and public fora as 
the bill was considered by the Russian Duma. We believe that our 
attention moved the Government of Russia to modify that bill. Now that 
the bill is law, we remain concerned about its potential impact on 
Russian civil society. We have pushed for fair, transparent, and 
consistent implementation of the law and intend to monitor the law's 
implementation closely. We will continue to press for robust democratic 
development in Russia more broadly.
    On Belarus, the United States has acted in concert with our 
European partners to press for democratic elections and to protest the 
fraudulent ballot that took place March 19 and the subsequent crackdown 
against opposition leaders and other Belarusian citizens. We have also 
expressed our disappointment with Russia's defense of these fraudulent 
elections and its condemnation of the performance of the OSCE 
Monitoring Mission, which documented that the elections were not free 
or fair. We have urged Russia to take a more constructive approach by 
pressing Belarus towards democratic reform and urging it to fulfill its 
OSCE commitments.
    President Bush has emphasized the importance of historical 
perspective: history is on the side of freedom. Speaking at Freedom 
House March 29, he reminded us that the 11advance of freedom is the 
story of our time,'' and that ``it's an interest of a country like 
Russia to understand and welcome democracy.'' That is why President 
Bush is committed to maintaining a frank discussion with Russia, aware 
that this path may not yield immediate solutions, but remains far more 
promising than seeking to isolate Russia.
    In this context, we continue to believe that attending the G8 
Summit, a forum in which we advance our interests on major global 
issues such as energy security, is the right course of action. As 
President Bush has said: ``I think that it would be a mistake for the 
United States not to go to the G8. . . . I need to be in a position 
where I can sit down with [President Putin] and be very frank about our 
concerns.''
    A balanced and honest view of United States-Russian relations must 
recognize areas of progress, too. It is in our interest to continue to 
seek cooperation with Russia, including on counter-terrorism, 
nonproliferation, Iran and the Middle East.
    On Iran, Russia has joined the international community in seeking 
an end to Tehran's pursuit of nuclear weapons, most recently by joining 
other members of the U.N. Security Council in issuing a March 31 
Presidential Statement that expresses support for the IAEA's call on 
Iran to suspend all enrichment-related activities and return to 
negotiations.
    On Iraq and the possible compromise of military information, I have 
made clear to Russian officials, both publicly and privately, that the 
United States takes these reports seriously, we hope Russia does also, 
and will respond to our inquiries with a serious answer.
    Question. A growing body of literature points to the importance of 
nutrition in preventing progression from HIV to AIDS and in supporting 
the care of AIDS patients. Seven out of 15 focus countries under the 
President's Emergency Plan for AIDS Relief (PEPFAR) are food insecure. 
PEPFAR has begun implementing 6-month bridge programs for individuals 
receiving ARVs, but their nutritional needs will likely persist or 
reappear after this 6-month period. What is the U.S. strategy to 
integrate food security and nutrition programs with our HIV/AIDS 
treatment programs? How are we coordinating with the World Food 
Programme, USAID's Food for Peace, and private voluntary organizations 
to integrate food and ARV programs?
    Answer. The areas that are affected by HIV have long been plagued 
by systemic and chronic food insecurity. Food insecurity and consequent 
nutritional problems do play a role in every aspect of the Emergency 
Plan. However, factors contributing to the resolution of food 
insecurity are extremely complex, and largely beyond the scope of the 
Emergency Plan. Other organizations and international partners have a 
strong comparative advantage in the area of food assistance, 
agriculture and food security. Therefore, a key precept of 
interventions supported by the Emergency Plan is to remain focused on 
HIV/AIDS and the factors that may increase food/nutrition needs for 
people living with HIV/AIDS (PLWHA), and thus to provide support for 
food only in limited circumstances, while leveraging other resources 
when possible.
    The Emergency Plan is committed to evidence-based best practices in 
providing food and nutritional support for PLWHA receiving care and 
treatment. Recognizing that this is too large and complex a problem for 
any one agency to handle on its own, the Office of the Global AIDS 
Coordinator (S/GAC) will partner with other U.S. Government agencies, 
namely USAID, USDA, HHS, and Peace Corps, as well as relevant U.N. 
agencies and the private sector, to leverage resources to carry out 
targeted, therapeutic and supplementary feeding, micronutrient 
supplementation, and food security and livelihood support.
    Interventions to address the food and nutrition needs of PLWHA work 
at multiple levels and involve a variety of partners. The Emergency 
Plan strategy considers specific objectives, such as: to improve 
quantity and quality of diet among PLHWA and Orphans and Vulnerable 
Children (OVC); build or replenish body stores of nutrients; prevent or 
stabilize weight loss; preserve and gain muscle mass; prevent diarrhea 
and other infections; speed recuperation from HIV-related infections; 
and prepare for and manage AIDS-related symptoms that affect food 
consumption and nutrient utilization.
    We have established an inter-agency working group to identify 
program models and comparative advantages in this area. Membership 
includes USAID, USDA, HHS, and Peace Corps. And we are consulting with 
potential partners, such as the World Food Program, Food and 
Agriculture Organization, WHO and UNICEF, as well as PVOs and others 
from the private sector. A report to Congress detailing the Emergency 
Plan food and nutrition strategy is currently in development, and will 
be published in May 2006.
    Question. Secretary Rice has said that the Department of State will 
forward deploy officials to high priority cities and countries. How 
does the Department plan to provide adequate security for these 
forward-deployed officials, particularly in ``presence posts'' where it 
will establish only minimal infrastructure?
    How are the departments of State and Defense providing for the 
security of personnel serving in provincial reconstruction teams in 
Afghanistan and Iraq? Are these teams getting the ``force protection'' 
support they need to do their jobs effectively?
    Answer. The Bureau of Diplomatic Security is currently 
participating in an inter-departmental working group that is studying 
the concept of American Presence Posts (APP) and developing guidelines 
and procedures for opening APPs. The Secure Embassy Construction and 
Counterterrorism Act (SECCA) of 1999 (Public Law 106-113) requires that 
any new diplomatic facility meet collocation and 100-foot-setback 
statutory requirements. The collocation, setback, and waiver 
requirements uniformly apply to embassies, consulates, and American 
Presence Posts (APPs). Once a post has identified a potential APP site, 
the Regional Security Officer (RSO), in coordination with DS 
Headquarters and the Bureau of Overseas Buildings Operations (OBO), 
will conduct a physical security survey of the location to determine 
security requirements. APP sites must adhere to or be in the final 
stages of compliance with the Overseas Security Policy Board (OSPB) 
standards prior to occupancy. Additionally, waivers to SECCA and 
exceptions to OSPB standards must be obtained for any site deficiencies 
that cannot be remedied.
    The Department of State continues to provide security for 
Provincial Reconstruction Teams (PRTs) based in Regional Embassy 
Offices (REOs) throughout Iraq. The substantial security features of 
REOs include, but are not limited to, perimeter security in the form of 
``T-walls,'' access control measures, anti-ram barriers, mylar on 
office windows, sandbags on housing trailers, and bunkers for use 
during sustained attacks. The amount requested in the Iraq supplemental 
under consideration by Congress will provide funding for perimeter 
security upgrades and overhead cover for housing and common use 
facilities. Extensive local guard programs, protection details, and an 
armored vehicle program support State Department personnel in the 
execution of their mission off compound. The Department of Defense is 
responsible for security at PRTs established on U.S. military forward 
operating bases (FOBs) and incorporates similar security programs for 
the protection of PRT personnel.
    At the present time, there are at least 752 U.S. military and 
civilian personnel assigned to 23 PRTs located throughout Afghanistan. 
There are currently nine PRTs under International Security Assistance 
Forces (ISAF) responsibility and fourteen under the responsibility of 
Operation Enduring Freedom (U.S./Coalition Forces). Force protection 
for U.S. civilian personnel assigned to PRTs is the responsibility of 
the military commander of the PRT. Force protection and security 
responsibilities for U.S. civilian personnel assigned to PRTs under 
U.S. military control are outlined in an MOU between Combined/Joint 
Task Force-180 (CJTF-180) and the U.S. Department of State signed in 
2002.
    No formal force protection/security agreement exists for U.S. 
civilian officers assigned to ISAF/NATO controlled PRTs. However, 
informally it is understood that U.S. personnel receive the same level 
of force protection as required by the host nation's senior civilian 
PRT staff.

                          SUBCOMMITTEE RECESS

    Senator McConnell. Thank you all very much. The 
subcommittee will stand in recess to reconvene at 2:30 p.m. on 
Thursday, June 8, in room SD-124. At that time we will hear 
testimony from the Honorable Randall L. Tobias, Administrator, 
United States Agency for International Development.
    [Whereupon, at 3:42 p.m., Thursday, March 28, the subcom- 
mittee was recessed, to reconvene at 2:30 p.m., Thursday, June 
8.]

</pre></body></html>
